<html>
<title> - NOMINATION OF VICE ADMIRAL DAVID P. PEKOSKE, TO BE ASSISTANT SECRETARY OF HOMELAND SECURITY, TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 115-223]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-223

                       NOMINATION OF VICE ADMIRAL
              DAVID P. PEKOSKE, TO BE ASSISTANT SECRETARY
                  OF HOMELAND SECURITY, TRANSPORTATION
     SECURITY ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 21, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            
                             


                Available online: http://www.govinfo.gov
                
                
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-976 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5037203f103325232438353c207e333f3d7e">[email&#160;protected]</a>                 
                
                
             
                
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 21, 2017....................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Nelson......................................     3
    Prepared statement...........................................     4
Statement of Senator Booker......................................    17
Statement of Senator Inhofe......................................    19
Statement of Senator Cortez Masto................................    21
Statement of Senator Gardner.....................................    23
Statement of Senator Sullivan....................................    25
Statement of Senator Cantwell....................................    27
Statement of Senator Blumenthal..................................    28
Statement of Senator Peters......................................    31
Statement of Senator Klobuchar...................................    33
Statement of Senator Hassan......................................    35
Statement of Senator Capito......................................    37

                               Witnesses

Vice Admiral David P. Pekoske, Nominee for Assistant Secretary of 
  Homeland Security, Transportation Security Administration, U.S. 
  Department of Homeland Security................................     4
    Prepared statement...........................................     7
    Biographical information.....................................     9

                                Appendix

Response to written questions submitted to Vice Admiral David P. 
  Pekoske by:
    Hon. Deb Fischer.............................................    41
    Hon. Bill Nelson.............................................    41
    Hon. Brian Schatz............................................    42
    Hon. Cory Booker.............................................    42
    Hon. Tammy Duckworth.........................................    43

 
                       NOMINATION OF VICE ADMIRAL
                   DAVID P. PEKOSKE, TO BE ASSISTANT
                    SECRETARY OF HOMELAND SECURITY,
                        TRANSPORTATION SECURITY
          ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                        WEDNESDAY, JUNE 21, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Nelson, Booker, 
Inhofe, Cortez Masto, Gardner, Sullivan, Cantwell, Blumenthal, 
Peters, Klobuchar, Hassan, Capito, Markey, Wicker, Young, 
Fischer, and Heller.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning. Today we will consider the 
nomination of Admiral David Pekoske to become the next 
Administrator of the Transportation Security Administration. 
Having spent over 32 years in the Coast Guard after graduating 
from the Coast Guard Academy in 1977, Admiral Pekoske is an 
exceptionally well-qualified nominee to become the next TSA 
Administrator.
    His extensive leadership experience ranges from serving as 
the Commander of the Coast Guard's Pacific Area and Coast Guard 
Defense Forces West, where he was in charge of all Coast Guard 
operations in the Western Hemisphere, to becoming the 26th Vice 
Commandant of the U.S. Coast Guard in 2009, where he served as 
the second-in-command, the Chief Operating Officer, and the 
Component Acquisition Executive of the Coast Guard.
    Admiral Pekoske's nomination to become TSA Administrator 
comes at an important time. Security threats remain a 
persistent challenge for both aviation and surface 
transportation, and the TSA is not only tasked with protecting 
these modes from terrorist attacks, but also ensuring the 
freedom of movement of people and commerce in an efficient 
manner.
    Since its creation by this Committee in response to the 9/
11 attacks, the TSA has been subject to extensive scrutiny by 
Congress, the public, and the media. The TSA has been 
appropriately criticized for issues like the ease with which 
covert testers from the Department of Homeland Security 
Inspector General and the Government Accountability Office have 
been able to smuggle contraband through screening checkpoints, 
as well as persistent problems with large acquisitions.
    In spite of these challenges, the previous TSA 
Administrator, Admiral Peter Neffenger, made significant 
positive changes to the agency, some of which include 
shortening wait times during last summer's travel season, 
improving technology at checkpoints, and the creation of a 
training academy for workers. I hope that Admiral Pekoske can 
build on these improvements, provide continuity for TSA's 
workforce, and apply his extensive leadership skills to solving 
the challenges that remain should he be confirmed.
    The Commerce Committee has been active on aviation 
security. Last Congress, the Committee passed the most 
comprehensive reforms to TSA in a decade in the FAA Extension 
Safety and Security Act of 2016, which addressed the challenges 
posed by unauthorized access to secure areas of airports, 
expanded access to TSA PreCheck, and attempted to optimize 
checkpoint operations.
    Earlier this year, however, the Commerce Committee held an 
oversight hearing in which DHS Inspector General John Roth 
testified that challenges still remain with regard to many of 
these issues. Inspector General Roth's testimony indicated that 
these challenges include vulnerabilities related to the vetting 
of employees, ensuring that only cleared employees have access 
to secure areas, and the troubling issue of lost or stolen 
access badges. I hope that Admiral Pekoske will make progress 
in addressing these persistent problems raised by Inspector 
General Roth.
    As the Committee continues work--to work, I should say, 
with TSA to improve aviation security, it's important to 
incorporate the perspectives of stakeholders. The Commerce 
Committee recently held a hearing to highlight stakeholder 
perspectives on improving TSA to better serve the traveling 
public. One of the major themes that emerged from the witness 
testimony was the need for a risk-based approach to security as 
well as better collaboration between TSA and industry to 
promote innovation.
    Currently, the Agency is drawing considerable attention for 
exploring the possible expansion of the ban on personal 
electronic devices, such as laptop computers, on flights to the 
United States from certain last point of departure airports. 
While the Secretary of Homeland Security has recently signaled 
that such a move may be unnecessary, this is a good example of 
an issue where stakeholder collaboration will be critical to 
the development of solutions and the acceptance and 
implementation of security protocols. My hope is that Admiral 
Pekoske will work to promote relationships with the private 
sector and create a culture at TSA that embraces innovative 
approaches to security.
    In the surface transportation sector, a long-standing 
challenge for TSA has been adopting a cross-cutting, risk-based 
approach to security across all modes. In April, the Committee 
held a markup on the Surface and Maritime Transportation 
Security Act, which I introduced with Ranking Member Nelson. 
Our bill would direct TSA to conduct an analysis across all 
modes of transportation for asset deployment, require the TSA 
apportion its budget on this basis, and establish a Surface 
Transportation Advisory Committee similar to the Aviation 
Stakeholder Advisory Committee. The bill was reported favorably 
with bipartisan support, and we continue to work to ensure its 
eventual enactment.
    I was able to meet with Admiral Pekoske last week in 
advance of this hearing, and I believe that, if confirmed, he 
will provide important strategic and cultural continuity to TSA 
in much the same manner as his distinguished predecessor. I 
strongly support his nomination and I hope that we can move 
quickly to confirm it.
    With that, I will turn to our Ranking Member Senator Nelson 
for any remarks he would like to make.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thanks, Mr. Chairman. And I agree with your 
comments, and therefore I'll insert my comments in the record. 
I just want to thank the Admiral for his 33 years with the 
Coast Guard, which is a very professional team. And the members 
of this Committee are very proud of the Coast Guard. And since 
he had the whole West Coast, that includes all the way down to 
American Samoa all the way up to the Bering Sea in the Arctic 
area where the Coast Guard basically takes care of all of that 
area.
    One thing that we might look at in this ever-changing scene 
of technology and the threats to transportation safety is that 
wherever people bunch up, that's a soft target. And we found, 
unfortunately, with Brussels and London, that that is outside 
the secured areas. And someplace I was the other day, I think 
it was at Grand Central Station, as people were getting ready 
to form the line to go through the gates to get on the train 
when the train arrived, and they don't let you go in until the 
train has arrived so that you don't clutter up the platform 
there by the tracks, I was thinking at the time, I mean, this 
is a bunch of Americans all massed up together. And this is 
stuff that you've got to worry about because it's all part of 
our transportation safety.
    Surface transportation, the security of that surface 
transportation has been underfunded and unfocused, and the bill 
that we are looking at aims to fix that by enhancing risk-based 
security, requiring training to address the threats on our 
highways, closing gaps in port security, and providing funding 
to improve security at our rail stations and our seaports.
    Now, the bill does something very, very important, and that 
is it adds 200 K9 teams, and that is not only a powerful 
technological thing because nobody has been able to reproduce 
the sensitive sniffing of a dog, but it also provides a strong 
psychological deterrence as well.
    And on the FAA Extension, which passed a year ago, it 
included bipartisan provisions to better guard against 
terrorism threats and improve security screening.
    And I will just say in conclusion that I think the people 
that had advised the President were not giving the best advice 
when they recommended cutting the dog teams in the President's 
proposed budget. Once you're in the position, Admiral, you need 
to make what you know to be true well known at OMB and the 
White House. And what we're trying to do in the bill is 
increase the number of canine teams, called VIPR teams.
    So thank you, Mr. Chairman. Let's hear from the witness.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Thank you Vice Admiral Pekoske for joining us today to discuss your 
nomination to be the next administrator of the Transportation Security 
Administration. And I want to thank you for your 33 years with the 
Coast Guard and your willingness to continue to serve our country.
    As you know, TSA is tasked with protecting our transportation 
systems and the traveling public, while also ensuring the flow of 
commerce. Though TSA is most visible to the public at commercial 
airports across the nation, the agency's security responsibilities cut 
across all modes of transportation; including transit, railroads, 
pipelines, and maritime.
    As threats to our transportation systems evolve, TSA must respond 
to meet new challenges and anticipate future risk.
    For instance, the attacks this week in London and Brussels, as well 
as several others over the last few years, continue to ring the alarm 
that surface transportation security remains a serious threat.
    That's why I worked with Chairman Thune and Senators Fischer and 
Booker to introduce the Surface Transportation and Maritime Security 
Act.
    For too long, surface transportation security has been underfunded 
and unfocused. Our bill aims to fix that by enhancing risk-based 
security, requiring training to address threats on our highways, 
closing gaps in port security, and providing funding to improve 
security at our rail stations and ports.
    Importantly, the bill adds as many as 200 K9 teams, which provides 
a powerful psychological and physical deterrent to potential threats.
    Also, the FAA extension, which passed into law in July 2016, 
included bipartisan provisions to better guard against terrorism 
threats and improve security screening efficiency for travelers.
    For instance, it authorized TSA to double the number of TSA's VIPR 
teams from 30 to as many as 60 teams. It also expanded grant funding to 
assist law enforcement in preparing for and responding to mass casualty 
and active shooter incidents at airports and mass transit systems.
    TSA was also required to evaluate staffing, technology options, and 
checkpoint configurations to expedite passenger movement through 
security screening. This included efforts to expand TSA PreCheck.
    Now although the administration increases TSA's overall budget from 
the previous Fiscal Year, it includes several proposals that could 
undermine security, including cutting the VIPR teams from 31 to 8, 
eliminating TSA staffing at airport exit lanes, and eliminating the Law 
Enforcement Officer Reimbursement Program.
    Instead of cutting the tools that have proven most effective, I 
believe we should be focused on reexamining and bolstering our 
transportation security strategy.
    Vice Admiral Pekoske, I look forward to hearing how you will 
protect our citizens and our Nation's vital transportation networks. 
And I hope that you will remain committed to visiting at least one of 
our Florida airports with me.

    The Chairman. Thank you, Senator Nelson.
    And we are delighted to welcome Admiral David Pekoske, of 
Maryland. He is here as a nominee to be Assistant Secretary of 
Homeland Security, Transportation Security Administration.
    So, Admiral, please proceed with your remarks, and we'll 
look forward to, at the conclusion of those, asking you a few 
questions. So please proceed.

          STATEMENT OF VICE ADMIRAL DAVID P. PEKOSKE,

          NOMINEE FOR ASSISTANT SECRETARY OF HOMELAND

    SECURITY, TRANSPORTATION SECURITY ADMINISTRATION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Admiral Pekoske. Thank you, Mr. Chairman. Good morning, 
Chairman Thune and Ranking Member Nelson and distinguished 
members of this Committee. It is a privilege to appear before 
you today as the President's nominee to lead the Transportation 
Security Administration.
    I am honored to have been nominated by President Trump for 
this very important national security position, and if 
confirmed, I look forward to the opportunity to work with 
Secretary Kelly, Deputy Secretary Duke, and the entire team at 
the Department of Homeland Security.
    My first comments today are in strong support of the men 
and women of the Transportation Security Administration. Each 
and every one contributes to the security of our Nation's 
transportation system and works tirelessly to earn the trust 
and respect of the American people. Their work is critical to 
the security of our aviation and surface transportation 
systems, and they have, in my opinion, done an outstanding job 
in protecting us from an ever present and very dynamic threat. 
It would be my privilege to join them as their Administrator 
and bring my leadership, skills, and experience directly to the 
effort of securing our homeland.
    TSA could not accomplish its mission were it not for the 
strong partnerships it has with other Federal partners, state 
and local public safety and law enforcement agencies, the 
airline industry, the government services industry, airport 
owners and operators, and international partners. Throughout my 
professional career, I have seen firsthand the importance and 
enormous value of strong partnerships and professional 
relationships. This is the extended TSA team, and it would be 
my privilege to join them as well in our collective goal of 
ensuring transportation security in the United States.
    I had the high honor of serving our country in the United 
States Coast Guard for most of my adult life. I am forever 
grateful to my Coast Guard colleagues for their investment in 
my leadership and professional development. I have extensive 
experience in counterterrorism and security operations and in 
leading a large operating Federal agency that uses risk-based 
management.
    I was at the Coast Guard Commandant's side on 9/11 as his 
executive assistant when the attacks on our homeland occurred. 
Like all of you, I will never forget that day and the days that 
immediately followed. I was privileged to remain as the 
Commandant's executive assistant when the TSA and the 
Department of Homeland Security were established.
    In the summer of 2004, I served as the lead Federal 
official for maritime security at our first two national 
political conventions since 9/11, the Democratic National 
Convention in Boston and the Republican National Convention in 
New York City. Both were National Special Security Events, and 
our security operations across all Federal, state, and local 
agencies were very successful. Strong partnerships among law 
enforcement and public safety agencies are absolutely critical 
and are a very high priority for me.
    I served as the Assistant Commandant for Operations at 
Coast Guard headquarters, establishing service-wide policy for 
our security operations and regularly participated in 
discussions with the National Security Council staff and the 
operations deputies of the other military services. As 
Commander of the Pacific area, I was responsible for all Coast 
Guard operations on the West Coast of the United States, 
Alaska, and Hawaii. Given the vast expanse of the Pacific and 
our national strategy of increasing emphasis on operations in 
the Pacific theater, I worked closely with the Coast Guards of 
Russia, China, South Korea, Japan, and Canada. I am a strong 
supporter of international engagement and international 
standard setting. Both can contribute substantially to the 
security of the United States.
    As Vice Commandant of the Coast Guard, I served as the Vice 
Service Chief, the Chief Operating Office, and the Coast Guard 
Acquisition Executive responsible to train, equip, and organize 
a Coast Guard force of over 50,000 people. In addition, I was 
the execution champion for the Coast Guard Innovation Program, 
one of the most well-established innovation programs in 
government. Should I be confirmed as TSA Administrator, 
innovation will be one of my key focus areas. I think it is 
critical in continuing to improve the effectiveness and 
efficiency of TSA operations.
    Following my Coast Guard service, I joined a very 
successful mid-market company in the government services 
industry. My experience in the private sector was very 
valuable, and I learned how government can be a better consumer 
of private sector expertise and support.
    My experience in the Coast Guard and in the private sector 
is directly relevant to the position of TSA Administrator. 
Today, we face a multitude of threats that are persistent and 
ever evolving. We know that certain terrorist organizations 
remain focused on commercial aviation and disrupting the 
freedoms we enjoy as an open society. Staying ahead of these 
threats and ensuring that appropriate measures are in place 
will continue to be TSA's most significant challenge.
    If confirmed, it will be my honor to serve in what I 
consider to be one of the most challenging jobs in government. 
My overarching goal would be to lead the TSA in an ever 
stronger position as an effective and efficient provider of 
security for our transportation systems, especially aviation, 
with a strong and growing level of public confidence in the 
agency's mission performance.
    I will articulate a clear vision for TSA to ensure all of 
our efforts contribute to its achievement. My full intention is 
to serve as TSA Administrator, if confirmed, for as long as the 
President and the Secretary wish me to remain in this position. 
I think leadership continuity at TSA is very important. If 
confirmed, I would be the 13th Administrator in 16 years, when 
you include those in an acting capacity.
    I'm always reminded of a quote of Alexander Hamilton when 
he, as our first Secretary of the Treasury, issued instructions 
to the commanding officers of the Revenue Cutters, which are 
the predecessors to the Coast Guard. Secretary Hamilton issued 
these instructions in 1791. He said in part, ``They will always 
keep in mind that their countrymen are free men and, as such, 
are impatient of everything that bears the least mark of a 
domineering spirit. They will, therefore, refrain, with the 
most guarded circumspection, from whatever has a semblance of 
haughtiness, rudeness, or insult.'' I think that sage advice 
from one of our country's Founding Fathers applies to all 
Federal officials involved in law enforcement and security 
operations today. It is something that will guide me if I am so 
fortunate as to have the opportunity to lead the TSA.
    The TSA is the face of the Federal Government to millions 
of air travelers every day. These travelers rightfully expect 
effective and efficient screening with a minimum delay by 
government officials who treat them with respect. I will work 
diligently with the entire TSA workforce to ensure TSA 
continues to meet this standard. We must balance the demands of 
security with the imperatives of liberty guaranteed in our 
Constitution.
    In closing, I thank President Trump and Secretary Kelly for 
their confidence in my ability to lead TSA. Chairman Thune, 
Ranking Member Nelson, and distinguished members of this 
Committee, I thank you for your courtesies during this 
confirmation process and for the opportunity to appear before 
you today. And I look forward to answering your questions.
    Thank you, sir.
    [The prepared statement and biographical information of 
Admiral Pekoske follow:]

   Prepared Statement of Vice Admiral David P. Pekoske, Nominee for 
   Assistant Secretary of Homeland Security, Transportation Security 
          Administration, U.S. Department of Homeland Security
    Good morning Chairman Thune, Ranking Member Nelson and 
distinguished members of this committee. It is a privilege to appear 
before you today as the President's nominee to lead the Transportation 
Security Administration (TSA). I would like to thank President Trump 
for nominating me for this important national security position and I 
would like to also thank Secretary Kelly and Deputy Secretary Duke for 
their support during this process.
    My first comments today are in strong support of the men and women 
of the TSA. Each and every one contributes to the security of our 
Nation's transportation system and works tirelessly to earn the trust 
and respect of the American people. Their work is critical to the 
security of our aviation and surface transportation systems and they 
have, in my opinion, done an outstanding job in protecting us from an 
ever present and very dynamic threat. It would be my privilege to join 
them as their Administrator and bring my leadership, skills and 
experience to the effort of securing our homeland.
    TSA could not accomplish its mission were it not for the strong 
partnerships it has with other Federal partners, state and local public 
safety and law enforcement agencies, the airline industry, the 
government services industry, airport owners and operators, and 
international partners. Throughout my professional career I have seen 
the importance and enormous value of strong partnerships and 
professional relationships. This is the extended TSA team and it would 
be my privilege to join them as well in our collective goal of ensuring 
transportation security in the United States.
    I had the high honor of serving our country in the United States 
Coast Guard for most of my adult life. I am forever grateful to my 
Coast Guard colleagues for their investment in my leadership and 
professional development. If confirmed, I would join Admiral Jim Loy 
and Vice Admiral Peter Neffenger as Coast Guard flag officers who have 
also served as Administrator. Both of them made significant 
contributions to the development of TSA and I welcome the opportunity 
to build on the foundation they and other Administrators have laid 
since the establishment of TSA by the Aviation and Transportation 
Security Act.
    I have extensive experience in counter-terrorism and security 
operations and in leading a large operating Federal agency. I was at 
the Coast Guard Commandant's side on 9/11 as his executive assistant 
when the attacks on our homeland occurred. Like you, I will never 
forget that day and the days that immediately followed. I was 
privileged to remain as the Commandant's executive assistant when the 
TSA and the Department of Homeland Security were established.
    My first assignment as a Coast Guard flag officer was as Commander 
of the First Coast Guard District, with regional responsibility for all 
Coast Guard operations from Northern New Jersey to Maine. Within weeks 
of arriving in this position, I served as the lead Federal official for 
maritime security at our first two national political conventions since 
9/11, the Democratic National Convention in Boston and the Republican 
National Convention in New York City. As the District Commander, I had 
oversight of the Coast Guard's maritime security operations in the 
ports of New York, New Jersey and Boston. We effectively managed risk 
and ensured the safe and secure flow of maritime commerce in these two 
ports.
    I served as the Assistant Commandant for Operations at Coast Guard 
headquarters, establishing service-wide policy for our security 
operations and regularly participating in discussions with the National 
Security Council staff and the operations deputies of the other 
military services. While the head of operations for the Coast Guard, we 
matured the development of Coast Guard deployable specialized forces 
that provided advanced counter-terrorism capability in our Nation's 
ports and coastal areas.
    I returned to Coast Guard field operations as Commander of the 
Pacific Area. I was responsible for all Coast Guard operations on the 
west coast of the United States, Alaska and Hawaii. In addition, I was 
the operational commander of the Coast Guard's polar icebreaker fleet 
with operations in the Arctic and Antarctic. Given the vast expanse of 
the Pacific and our national strategy of increasing emphasis on 
operations in the Pacific theater, I worked closely with the Coast 
Guards of Russia, China, South Korea, Japan and Canada. I am a strong 
supporter of international engagement and international standards 
setting. Both can contribute substantially to the security of the 
United States.
    As Vice Commandant of the Coast Guard I served as the Vice Service 
Chief, the Chief Operating Officer and the Coast Guard Acquisition 
Executive responsible to train, equip and organize a Coast Guard force 
of over 50,000 people. Both Coast Guard Area Commanders and the most 
senior headquarters staff (Deputy Commandant for Operations, Deputy 
Commandant for Mission Support, the Assistant Commandant for Resources, 
The Judge Advocate General, and the Assistant Commandant for 
Governmental and Public Affairs) reported directly to me in this 
position. During this time, the Coast Guard responded to the Deepwater 
Horizon Oil Spill and I served as Acting Commandant when ADM Thad Allen 
became the National Incident Commander for Deepwater Horizon. In 
addition, I was the executive champion for the Coast Guard Innovation 
Program, one of the most well established innovation programs in 
government. Should I be confirmed as TSA Administrator, innovation will 
be one of my key focus areas. I think it is critical in continuing to 
improve the effectiveness and efficiency of TSA operations.
    Following my Coast Guard service, I joined a very successful mid-
market company in the government services industry. We provided 
counter-terrorism services to components of the Departments of State, 
Defense and Homeland Security. Our expertise was in counter-improvised 
explosive devices. My experience in the private sector was very 
valuable, as I learned how government can be a better consumer of 
private sector expertise and support. In addition, I joined several 
interest groups that advocated for military, veterans and national 
security issues. I have been an instructor at the Naval Postgraduate 
School for several years, participating in a course on innovation for 
new flag/general officers and members of the Senior Executive Service. 
I have also been an adjunct faculty member at American University 
teaching a graduate course titled ``Politics, Policymaking and Public 
Administration.''
    My experience in the Coast Guard and in the private sector is 
directly relevant to the mission of TSA. Today, we face a multitude of 
threats that are persistent and ever evolving. We know that certain 
terrorist organization remain focused on commercial aviation and 
disrupting the freedoms we enjoy as an open society. Staying ahead of 
these threats and ensuring the appropriate measures are in place will 
continue to be TSA's most significant challenge.
    TSA is the face of the Federal Government to millions of travelers 
every day. These travelers rightful expect effective and efficient 
security with the minimum of delay by government officials who treat 
them with respect. I will work diligently with the entire TSA workforce 
to ensure we meet this standard. We must balance the demands of 
security with the imperatives of liberty guaranteed in our 
Constitution.
    If confirmed, it would be my honor to serve in of one of the most 
challenging jobs in government. My overarching goal would be to leave 
the TSA in an ever stronger position as an effective and efficient 
provider of security for our transportation systems, especially 
aviation, with a strong and growing level of public confidence in the 
agency's mission performance.
    I am always reminded of a quote of Alexander Hamilton when he, as 
our first Secretary of the Treasury, issued instructions to the 
Commanding Officers of Revenue Cutters (predecessors to the Coast 
Guard) in 1791. He said, in part, ``They will always keep in mind that 
their countrymen are freemen, and, as such are impatient of everything 
that bears the least mark of a domineering spirit. They will, 
therefore, refrain, with the most guarded circumspection, from whatever 
has the semblance of haughtiness, rudeness, or insult.'' I think this 
sage guidance from one our country's founding fathers applies to all 
Federal officials involved in law enforcement and security operations 
today. It is something that will guide me if I am so fortunate as to 
have the opportunity to lead TSA.
    In closing, I thank President Trump and Secretary Kelly for their 
confidence in my ability to lead TSA. Chairman Thune, Ranking Member 
Nelson and distinguished members of this committee, I thank you for the 
opportunity to appear before you today and look forward to answering 
your questions.
                                 ______
                                 
                      a. biograph1cal information
    1. Name (Include any former names or nicknames used): David Peter 
Pekoske.
    2. Position to which nominated: Assistant Secretary of Homeland 
Security, Transportation Security Administration.
    3. Date of Nomination: June 6, 2017.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: Information not provided.

    5. Date and Place of Birth: May 5, 1955; Meriden. CT.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Michele R. Pekoske, maiden name Roy, not employed.

        Children: Matthew D. Pekoske, 31; Kristen M. Pekoske, 29; 
        Corinne N. Pekoske, 25; Jillian E. Pekoske, 23.

    7. List all college and graduate degrees. Provide year and school 
attended.

        U.S. Coast Guard Academy, BS, 1977

        Columbia University, MPA, 1989

        Massachusetts Institute of Technology, MBA, 1997

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        U.S. Coast Guard Active Duty (1977-2010)
        Captain of the Port, Long Island Sound Executive Assistant to 
        the Commandant Commander, First Coast Guard District Assistant 
        Commandant for Operations Commander, Coast Guard Pacific Area 
        Vice Commandant

        A-T Solutions, Inc.
        Group President, National Security Solutions

        PAE, Inc.
        Vice President, National Programs

        American University
        Adjunct Professorial Lecturer, School of Public Affairs

        Naval Postgraduate School
        Instructor, Leading Innovation Program

        Frontier Security Strategies
        Expert (no work or income has been derived from this entity)

    9. Attach a copy of your resume.
    Please see the attached resume.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years.
    None with federal, state or local governments.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.
    I have held positions with the following organizations:

  <bullet> InfraGard National Members Alliance, Chairman of the Board 
        and Board Member

  <bullet> Jewish Institute for the National Security of America, Board 
        of Advisors

  <bullet> Heroes Linked: Military Veterans Appreciation Trust 
        Foundation, Board of Advisors

  <bullet> National Academies of Sciences, Engineering and Medicine, 
        Naval Studies Board, Member

  <bullet> National Academies of Sciences, Engineering and Medicine, 
        Member--Committee on Polar Icebreaker Cost Assessment

  <bullet> U. S. Global Leadership Coalition, Member, National Security 
        Advisory Council

  <bullet> Coast Guard Academy Board of Trustees Member

  <bullet> Association for Rescue at Sea, Board Member

  <bullet> Country Place Citizens Association, Chair, Covenants 
        Committee

  <bullet> Pacific Architects and Engineers (PAE), Vice President

  <bullet> A-T Solutions, Group President

  <bullet> Frontier Security Strategies, Expert

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Coast Guard Academy Alumni Association, 1977-Present, Member
        MIT Sloan Alumni Association, 1997-Present, Member

    Neither organization restricts membership on the basis listed in 
the question.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    l4. Itemize all political contributions to any individual, campaign 
organization political party) political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period, None,
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Homeland Security Distinguished Service Medal

        Coast Guard Distinguished Service Medal (2 awards)

        Legion of Merit (2 awards)

        Meritorious Service Medal (5 awards)

        Coast Guard Commendation Medal (2 awards)

        Coast Guard Achievement Medal (4 awards)

        Coast Guard Commandant's Letter of Commendation (1 award)

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have authored three articles:

  <bullet> ``Maritime Security for our Nation's Democratic Process,'' 
        Joint Center for Operational Analysis and Lessons Learned, 
        Quarterly Bulletin, Volume VII, Issue 1, December 2004;

  <bullet> Marine Safety Program Editorial: Pacific Maritime Magazine, 
        October, 2007; and

  <bullet> ``Modernization and the Coast Guard Reserve,'' Rudder Post 
        Newsletter, November, 2008.

    Since my active duty CG service, I have spoken at a Maritime 
Security Conference in Miami and at a World Customs Organization IT 
Conference in Brisbane, Australia. Both speeches were on cross-border 
risk management.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        House Committee on Homeland Security, Subcommittee on Border, 
        Maritime and Global Counterterrorism: Hearing on Border 
        Security, February 13, 2007
        Senate Committee on Commerce, Science, and Transportation 
        Hearing on the Implementation of the SAFE Port Act, October 4, 
        2007

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?

  <bullet> Performance in top leadership positions of a large 
        operational agency in the Department of Homeland Security;

  <bullet> Experience in operational risk management and risk 
        mitigation;

  <bullet> Crisis leadership;

  <bullet> Experience working with other federal, state and local law 
        enforcement and public safety agencies;

  <bullet> Experience in working with industry and interest groups;

  <bullet> Knowledge of improvised explosive devices; and

  <bullet> Business experience in government services contracting.

    I am honored to be nominated by the President for the position of 
Assistant Secretary of Homeland Security, Transportation Security 
Administration. I wish to serve in this position because I bring 
seasoned executive level leadership that I will put to use to further 
improve TSA operations and position the agency for the future. This is 
a great opportunity to serve our country, lead the outstanding men and 
women serving in TSA and help protect the American people.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the depat1ment/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed, I will be responsible for ensuring required 
management and accounting controls are being used at TSA. My most 
relevant experience in managing a large organization was my service as 
Vice Commandant. In that position I was the Coast Guard's Vice service 
chief, Chief Operating Officer and Component Acquisition Executive.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The top three challenges, from my perspective as a nominee, are 
workforce engagement, innovation, and surface transportation security.
    Workforce Engagement. TSA is comprised of approximately 60,000 
dedicated men and women who help ensure the security of our aviation 
and surface transpm1ation systems. The workforce must be responsive to 
the changing threat environment in providing effective and efficient 
security services. They represent the face of government to the 
traveling public and enjoy a public trust that their work makes air 
travel secure. I will place emphasis on training and leadership 
development of the TSA workforce with the goal of continued performance 
improvement and higher levels of employee satisfaction.
    Innovation. TSA has an innovation task force that formed a 
beneficial public-private partnership with industry, airports and 
airlines to foster innovation. This task force is working to identify 
and introduce technology solutions to improve the effectiveness and 
efficiency of checkpoint security. This outstanding effort needs to 
continue to receive strong support from top leadership. In addition to 
technological solutions, this partnership can foster innovation on 
process improvements using existing and new technology.
    Surface Transportation Security. TSA's role in surface 
transportation security is focused on security program oversight, 
system assessments, voluntary operator compliance with industry 
standards, collaborative law enforcement and security operations, and 
regulations. The risk to surface transportation needs to be continually 
evaluated as threats evolve. Surface transportation systems are 
vulnerable and a security incident can result in significant negative 
consequences. I will ensure TSA continues to place emphasis on surface 
transportation security.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Pursuant to a separation agreement with PAE, I receive fixed 
biweekly payments that will continue through November, 2017. As part of 
the agreement, I agreed to cooperate with PAE in a specific litigation 
matter upon request and for which PAE will reimburse me for reasonable 
expenses incurred in connection with such assistance with advance 
approval from PAE.
    I continue to participate in PAE's 401 (k) defined contribution 
plan. The plan sponsor (PAE) no longer makes contributions. The sole 
underlying asset in this defined contribution plan is detailed in the 
Assets and Income section of my nominee Financial Disclosure Report 
(OGE Form 278e).
    As a Coast Guard retiree, I also receive monthly retirement 
payments from the Federal Government.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    None except as described in 1 above.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Homeland 
Security's Designated Agency Ethics Official to identify potential 
conflicts of interest. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the Department's Designated Agency Ethics 
Official and that has been provided to this Committee. I am not aware 
of any other potential conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy. None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I would obtain the advice of the agency or department ethics 
official and follow that advice.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:

  a.  Provide the name of agency, association, committee, or group;

  b.  Provide the date the citation, disciplinary action, complaint, or 
        personnel action was issued or initiated;

  c.  Describe the citation, disciplinary action, complaint, or 
        personnel action;

  d.  Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.

    No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain.
    There was a complaint of discrimination under the Age 
Discrimination Employment Act of 1967 initiated by an employee in 2005. 
A mediation process was implemented and all issues between the parties 
have been resolved. The agreement, signed on September 20, 2005, 
contains a confidentiality clause which prohibits divulging the details 
of the case.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                       Resume of David P. Pekoske

Career Objective: Executive leadership position with a high growth/high 
impact organization

Summary: Over six years of executive business experience leading a 
homeland security/intelligence government services business area with 
responsibility for revenue of $110 million and 13 percent year-over-
year growth. Board Chairman of a national security related not-for-
profit with over 35,000 members nation-wide. Extensive experience in 
military and Federal interagency operations based on over 30 years of 
Coast Guard service and continued strong relationships within 
government. Strong executive leadership, management and communications 
ability. Strengths include:

  <bullet> Strategy development

  <bullet> Operational leadership

  <bullet> Crisis management

  <bullet> Risk Assessment

  <bullet> Financial management

  <bullet> Team building

Accomplishments

Strategy development: Developed growth campaigns in the intelligence, 
software development and homeland security business areas that grew 
revenue even during periods of significant pressure on Federal 
appropriations. Led a board of directors in developing and implementing 
a national strategy to strengthen public-private sector partnerships to 
enhance critical infrastructure protection.

Operational leadership: Executive responsibility for the execution of 
multiple U.S. and foreign government contracts and the achievement of 
business goals for revenue and profit. Led national planning effort for 
maritime security operations during the 2004 national political 
nominating conventions in Boston and New York, the first since 9/11, 
directly contributing to the overall security success of both events.

    Crisis management: Principal Federal Official for a national level 
counter-terrorism exercise that strengthened industry-government 
partnership and led to approval of a national response framework for 
crisis response.

Risk assessment: Led the improvement of cross-border risk management 
tools for vessels and cargo that are in use around the world. Matured 
U.S. Government Maritime Security Risk Assessment Management tool that 
consistently assesses risk in ports, identifying where greatest risk 
buy-down can occur, making security more effective and efficient.

Financial management: Expertly managed a profit and loss (P&L) business 
area. Demonstrated ability to improve return on sales performance and 
achieve organic and new business growth. As the Coast Guard's Component 
Acquisition Executive, championed the development and execution of an 
annual acquisition budget that exceeded $1 billion in the largest major 
asset recapitalization in Coast Guard history.

Team building: Successfully integrated business areas from two separate 
companies into a third larger company. Skillfully integrated the 
acquisition of a niche technology company into a larger national 
security services business. Co-chaired a National Security Council 
working group that developed policy choices and coordinated U.S. 
Government planning for a potential mass migration from Cuba.

Recent Employment History

Vice President, National Programs, PAE, (2010-2016): Leads a business 
area focused on the intelligence and homeland security markets with 
responsibility for $110 million in revenue, $11 million in EBIT and 
1,200 employees/consultants. Was formerly a business unit president for 
a similar customer base with A-T Solutions prior to its acquisition in 
2015 by PAE.

Vice Commandant, U.S. Coast Guard, Washington, D.C. (2009-2010): 
Second-in-command of the U.S. Coast Guard, an 88,000-person military 
service/federal agency with a $10.5 billion annual appropriation. Chief 
Operating Officer and Component Acquisition Executive. First line 
supervisor of CFO. Managed executive development, assignments and 
evaluations.

Commander, Coast Guard Pacific Area, Alameda, CA (2008-2009): 
Operational commander for all Coast Guard operations in the Pacific, 
the Arctic and the Antarctic. Led the development of two new national 
commands, the Deployable Operations Group and the Force Readiness 
Command.

Assistant Commandant for Operations, U.S. Coast Guard, Washington, D.C. 
(2006 -2008): Policy and resource responsibility for all of the Coast 
Guard's operating programs. Chaired the Coast Guard Awards Board. Co-
chaired the Cuba Migration Work Group, National Security Council. 
Chaired a DHS committee reporting to the Deputy Secretary that made 
significant improvements to operations coordination across all of the 
DHS operating components.

Commander, First Coast Guard District, Boston, MA (2004-2006): 
Operational commander for all northeastern U.S. operational units. Pre-
designated Principal Federal Official for hurricane preparedness and 
response in the Northeast.

Military bio available at:
http://www.uscg.mil/history/people/Flags/VCG/PekoskeDavidP_Bio.pdf

Education

Master of Business Administration, Sloan School of Management, 
Massachusetts Institute of Technology

Master of Public Administration, School of International and Public 
Affairs, Columbia University

Bachelor of Science in Ocean Engineering, U.S. Coast Guard Academy

Security Clearance: Top Secret/SCI
Boards and Associations

Member, Naval Studies Board, National Academies, 2013-Pres.

Chairman, InfraGard National Members Alliance Board of Directors (a 
35,000 member 501 (c) (3)), 2012-2015

Member, U.S. Global Leadership Coalition, National Security Advisory 
Council, 2013-Pres.

Member, Association for Rescue at Sea Board of Directors, 2015-Pres. 
Member, Heroes Linked Advisory Board, 2015-Pres.

Member, Jewish Institute of National Security Affairs Board of 
Advisors, 2013-Pres. Member, Adjunct Faculty, American University 
School of Public Affairs, 2012-Pres.

Instructor, Naval Postgraduate School Center for Executive Education, 
2008-Pres.

    The Chairman. Thank you, Admiral. We appreciate very much 
your willingness to serve in what is a critically important 
position. And we look forward to working with you to meet the 
challenges that we have ahead of us.
    Let me start by asking a question about the PreCheck 
program at TSA in which I, and I assume a number of the Members 
of this panel, participate. It's a valuable risk-based security 
measure that provides expedited checkpoint screening at 
airports for low-risk trusted travelers.
    Last year, we included a provision in the FAA Extension to 
strengthen TSA's faltering efforts to expand the PreCheck 
Application program and enroll more vetted travelers. Since 
enactment, the TSA has not implemented key elements required 
under the law, such as soliciting multiple private sector 
enrollment options or identifying a specific time-frame and 
long-term strategy for approving private sector marketing and 
PreCheck.
    So the question, Admiral, is, do you believe it's important 
to expand PreCheck enrollment opportunities for the traveling 
public so that more trusted travelers are flying our skies and 
the TSA can therefore focus on screening high-risk travelers?
    Admiral Pekoske. Mr. Chairman, yes, I do. I am also a 
PreCheck participant. I think it's a terrific program. About 5 
million of our travelers are enrolled in PreCheck, and then 
when you add in some of the other programs, you get up to about 
8 million people. But that only accounts for maybe 18 or 20 
percent of the traveling public, which is way too low in my 
opinion. If confirmed, I'm going to take a close look at the 
recommendations that the Committee has made, was passed in law, 
and do everything we can to make enrollment easier for people, 
encourage enrollment, and ensure that the incentives for 
PreCheck are clear and evident to travelers as they go through 
the queue, sir.
    The Chairman. And so that's what I want, the follow up is, 
will you commit to fulfilling the directives from Congress 
regarding this program in a timely manner and then update our 
Committee on how TSA will expand PreCheck under your 
leadership?
    Admiral Pekoske. Yes, sir, I commit to doing that.
    The Chairman. TSA's primary focus has been aviation 
security. However, threats have continued to evolve, and soft 
targets and open environments, such as train stations, have 
become an area of increasing concern. If confirmed, how would 
you seek to address these security challenges without impeding 
the flow of passengers and commerce?
    Admiral Pekoske. Sir, we're reminded nearly every day now 
of the risks in the surface transportation mode and also the 
risks in the aviation mode. And from my perspective, if 
confirmed, I would absolutely bring that risk-based approach to 
weighing how resources are allocated amongst the different 
modes of transportation.
    When I look at the risk in any particular transportation 
mode, I look at three things: I look at the threat, the 
vulnerability, and the consequence should an incident occur. I 
can see the vulnerability and the consequence absolutely in the 
surface transportation side. I don't yet have the intelligence 
briefings that would help me evaluate the threat, but I intend 
to do that very quickly if confirmed and take a very close look 
at that. That is a key priority of mine.
    I'm a user of mass transit and I just think we need to 
reassure ourselves of a very dynamic, a very moving threat 
picture, and make sure that we're applying resources in the 
right locations.
    The Chairman. Historically, TSA has experienced 
difficulties in retaining full-time security officers. Staffing 
levels fell by more than 4,600 from 2013 to 2016 while 
passenger volumes during the same time period rose by 
approximately 15 percent. If confirmed, what would you do to 
increase the retention rates at TSA?
    Admiral Pekoske. Mr. Chairman, if confirmed, looking at the 
retention rates and the overall job satisfaction amongst the 
TSA workforce is one of my very top priorities. The TSA 
workforce, particularly at the front lines, are the front line 
of our organization. They interact with the American public day 
in and day out in the number of millions of interactions. I 
think that continuing the efforts of Administrator Neffenger in 
that regard would be very appropriate, providing training, 
providing some sense of what a career path in TSA would look 
like for our frontline officials, a career path in other 
elements of the Department of Homeland Security as well would 
be very important.
    The bottom line, though, from my perspective, having worked 
with a widely dispersed workforce in the Coast Guard of similar 
size, it's very important for top leadership to be present with 
that workforce to understand what challenges they have in 
accomplishing their job and to support them in good procedures, 
seek their input, provide appropriate technology out there, but 
really understand the challenges that that frontline workforce 
is facing.
    Finally, I would say that an attrition rate that approaches 
12 percent for the full-time workforce costs a lot of money, 
and it also reduces the effectiveness of the agency because you 
lose that experience base going forward. And so increased 
retention and job satisfaction are absolute top priorities of 
mine.
    The Chairman. Great. Recent terror threats to commercial 
aviation resulted in a ban on certain carry-on electronic 
devices for individuals traveling from select airports to the 
United States. And as I noted in my opening remarks, this ban 
and the debate about whether to expand it demonstrate both the 
urgent need to work with our aviation partners and to quickly 
deploy advanced security technology to combat the latest 
threats. Unfortunately, it currently takes TSA many years to 
test, evaluate, procure, and deploy new technologies.
    How will you prioritize deploying the latest security 
technology quickly and effectively? And will you work with 
Congress to bring any ideas to the table from your private 
sector experience regarding ways that TSA could improve its 
efforts?
    Admiral Pekoske. Yes, sir, I would absolutely work with 
Congress and bring my private sector experience to the table. I 
had a different perspective in the private sector and have a 
number of ways I think that government agencies can be much 
more responsive and get better value for their investment in 
private sector work.
    The TSA, as I understand it, has stood up an Innovation 
Task Force that has looked at various technologies to put in 
place at the screening locations. This is showing real promise, 
from what I understand. My experience in the Coast Guard 
Innovation is significant, and I would bring that experience to 
TSA in accelerating the work of the Innovation Task Force. I'll 
throw my full support behind it, if confirmed, but also looking 
for input from the TSA workforce and stakeholders of TSA as to 
how we can improve our processes. We, in the Coast Guard, 
receive an awful lot of good recommendations, and basically use 
a crowdsourcing methodology to beta test them, if you will, and 
I would look to bring some similar system like that in place in 
TSA, if confirmed, to get input from the workforce and from 
stakeholders on how we can better process people through 
screening points.
    The Chairman. Thank you, Admiral.
    Senator Nelson.
    Senator Nelson. Mr. Chairman, I think Senator Booker has an 
appointment that he needs to make, so let me defer to him for 
the questioning.
    The Chairman. Senator Booker.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you very much, Mr. Chairman. Thank 
you very much to my Ranking Member.
    I've been really concerned about within the 9/11 Report, 
they talk very specifically about the urgency around rail 
security in our country, but I haven't seen sort of a 
coordinated plan coming out of TSA about allocating assets to 
rail safety and rail security.
    As you know, in September 2016, there were a series of 
attacks carried out in New York and New Jersey, including an 
incident involving pipe bombs found near Amtrak, a New Jersey 
Transit train station, in Elizabeth, New Jersey. There were 
incredible law enforcement leaders at that time who worked 
diligently. They located the pipe bombs. They were able to 
remove them before they could harm passengers. It was really a 
great tribute to law enforcement in the New Jersey community, 
but the incidents really underscore how vulnerable many of our 
surface transportation systems are to these threats.
    I don't believe that we're even complying with some of the 
directives that came out of the 9/11 Report, and it seems often 
we're fighting the last terrorist attack or the last incident 
as opposed to looking about forward. And we see what's 
happening in Europe where a number of attacks are focused on 
rail transportation. And the incident in Brussels obviously 
continues to highlight the need to address surface 
transportation security.
    So can you describe to me some of the ways that TSA, under 
your leadership, can address these security threats of surface 
transportation specifically with my concerns around the safety 
of rail transportation in our country?
    Admiral Pekoske. Yes, sir. If confirmed, I would put a lot 
of effort in TSA into looking at the intelligence around the 
rail threat in particular. TSA has an exceptional intelligence 
and analysis operation. It's very well coordinated with the 
intelligence community overall. And from my perspective, the 
intelligence community has done a very good job of keeping 
Americans safe, and really, as you said, looking at the threat 
that is next, not the threat that we just dealt with. So I 
would place a lot of emphasis, if confirmed, on looking at the 
threat for rail.
    And then in addition to that, great communication with the 
rail operators and the local law enforcement around those key 
rail transportation nodes so you can understand from their 
perspective what they see. They have their own sources of 
information, certainly valuable experience, that we could all 
benefit from. And this is very much a collaborative effort, but 
I would place a lot of emphasis on really focusing intelligence 
to make sure that we've taken a good hard look at this and 
understand the risk.
    Senator Booker. OK. And then just specifically the 9/11 
Report. It was actually way back in 2007. I wasn't here then, 
but Congress passed legislation requiring the TSA and other 
agencies to implement the recommendations of the 9/11 
Commission. What has been frustrating to me is that some of 
those recommendations have languished since 2007, like the 
training for frontline transit and freight employees. And this 
was an area of significant frustration for me when I came to 
the U.S. Senate, to see specific requirements from Congress not 
being fulfilled.
    And so can you commit to implementing the 9/11 requirements 
in order to ensure that we have more frontline employees 
protecting our surface transportation system? Even just the 
allocation of TSA resources, it's so dramatically weighted 
toward air travel, which is critical and important, but even 
the 9/11 Commission indicated the concerns with surface 
transportation, and it seems to me--but, again, there were 
requirements for reporting of a plan, but it seems to me we 
should have a better investment in resources.
    And so I guess what I'm looking for is just a commitment on 
implementing the specific 9/11 requirements and the 
congressional legislation passed in 2007.
    Admiral Pekoske. Yes, sir, you have my commitment to do 
that. And I would be happy to report back to you if confirmed 
on the status shortly after I get into office.
    Senator Booker. So I'm grateful. Just really quickly, port 
security is obviously something that's very important to the 
state of New Jersey and is part of TSA's mission. Would you 
also commit to ensuring me that major seaports like the Port 
Authority--like the Port of New York and New Jersey will have 
the resources and support to ensure secure movement of freight?
    Admiral Pekoske. Yes, sir. The TSA works very closely with 
the Coast Guard, of which I'm very, very familiar.
    Senator Booker. Yes.
    Admiral Pekoske. And when I was the First District 
Commander, I had oversight of the captain of the port 
operations in the Port of New York and New Jersey, and I will 
commit to taking a very close and hard look at that to make 
sure that the TSA and Coast Guard coordination is what we would 
expect it to be.
    Senator Booker. Right. And no need to respond, but I'm just 
hoping that aspects like the VIPR team bomb-sniffing canines, 
something that we've had bipartisan support for, are really 
critical.
    And with my last 10 seconds, I just want to thank you for 
your willingness to continue to serve your country. It's an 
extraordinary commitment that many Americans make. They don't 
get the gratitude that they deserve. But I want you to know I'm 
grateful that you're putting yourself up for this position and 
willing to subject yourself to questions like these.
    Admiral Pekoske. Thank you, Senator. I appreciate it.
    The Chairman. Thank you, Senator Booker.
    Senator Inhofe.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    Admiral, first of all, I appreciate very much the time that 
you spent with me and with other members of this Committee 
prior to this hearing. And everyone knows how significant this 
is. I shared with you some personal experiences I've had with 
the Coast Guard, with what they have done, their expertise in 
the area that you are going to be involved in, even commenting 
that when I had occasion to fly a little airplane around the 
world, I found myself going from Coast Guard station to Coast 
Guard station because I knew what their missions were, and it's 
so much more than just search and rescue.
    I think it would be worthwhile to run over a few things 
that the Coast Guard has been doing, because before it was 
popular, they were involved in this field. So what the Coast 
Guard has been doing in terms of its mission and then how you 
personally were involved in that. And then following that up on 
specifically what you were doing on 9/11 and so forth.
    Let's start with the Coast Guard in general as a training 
ground for this job.
    Admiral Pekoske. Senator, thanks for the question. I think 
the Coast Guard is actually almost a perfect training ground 
for this job. And if you look at the similarities between what 
the Coast Guard does and what TSA does, it's striking how 
similar the organizations are, both relying on a risk-based 
approach to providing the right resources at the right place at 
the right time. Both are law enforcement agencies. Both are 
regulatory agencies. Both are upscale. Coast Guard, 50,000-plus 
individuals all throughout the country, as you mentioned, at 
smaller stations, TSOs, and the Federal security director 
staffs all throughout the Nation, 440-some-odd locations. And 
certainly both in the Department of Homeland Security 
originated in the Department of Transportation.
    I think, too, that both organizations rely heavily on 
intelligence information to kind of get ahead, as Senator 
Booker was mentioning, to get ahead of the next threat so that 
we're there and ready to meet it, should it occur.
    And so I think really from those aspects of similarities 
with the organization, it's a really good fit.
    Additionally, I would say that, to go to the Chairman's 
question earlier, when you look at the TSA workforce, how can 
you really invest more heavily in that workforce? These folks 
are on the front line of our operations. In my view, my 
experience traveling over all the years since TSA has been 
established is I've never had a bad experience at a security 
checkpoint. I really respect very much the work that our 
individuals, should I be confirmed in TSA, perform day in and 
day out.
    What I think is needed, though, is more investment in them 
as individuals, in their training, and also in leadership 
overall within the organization. TSA is 16 years old. The Coast 
Guard is 226 years old. And what I bring from the Coast Guard 
is a perspective of what a culture looks like that can be rapid 
response to a changing dynamic threat that can empower people 
at the lowest levels of the organization that are facing the 
American public and really are the ones that make the decisions 
that mean success or failure for your mission overall.
    And so I am looking forward to joining the TSA workforce, 
if confirmed, as much as I enjoyed working with the Coast Guard 
workforce, which I enjoyed tremendously.
    With respect to the public area of security, TSA, as I 
understand it, has an initiative to look at public area 
security overall, has a framework in place to be able to do 
that, and is putting the resources and the time to ensure 
better coordination and to ensure some standardization, if you 
will, across the country at some basic level of performance. So 
I think there has been good work done in that regard as well.
    Senator Inhofe. Yes, I was going to ask you that you 
elaborate a little bit on 9/11, what you were doing at that 
time and----
    Admiral Pekoske. Yes, sir. I was Admiral Loy's executive 
assistant on 9/11. And as we can all remember, it was a 
beautiful day here in Washington, D.C. We had several meetings 
in the morning. Literally in the middle of one of those 
meetings we got the first reports that flashed across the TV 
monitor, and then from there on, it was a full-up response 
trying to assess the impact of what was going on.
    A couple of hours after the first attacks, of course, we 
heard and saw the impact on the Pentagon building. I can 
remember driving home that night, I lived in Northern Virginia 
at the time, driving right by the Pentagon and to see the 
Pentagon with smoke coming out of the structure was incredibly 
impactful for me because you really got to see and feel exactly 
what had happened.
    I learned a lot by watching Admiral Loy and Secretary 
Mineta respond to that incident. I think that they demonstrated 
what I would hope to be able to demonstrate, is in a crisis 
when you're called on and you have to respond and you have to 
be really at the top of your profession in doing it, both of 
those gentlemen were.
    Senator Inhofe. And the reason I bring that up, because 
I've also had personal experience in the southern tip of Texas. 
Down there there's one of your stations, in South Padre Island, 
Texas.
    Admiral Pekoske. Right.
    Senator Inhofe. Every time we've had some type of an 
incident come up or a threat of a terrorist attack, the very 
thing that you'll be doing in your job, they were the first 
ones to respond.
    Admiral Pekoske. Right.
    Senator Inhofe. And I've been down there and I've actually 
seen them. And my time is expired, but just one word of 
caution. There will be a lot of people out there that would 
like to use an incident that may be isolated where some little 
old lady is being frisked or something, you know what is going 
to happen, and so you're going to get ready for a media that's 
not your best friend. They may be now, but they won't be later 
on as this progresses.
    Admiral Pekoske. Yes, sir.
    Senator Inhofe. I look forward to working with you.
    Admiral Pekoske. Yes, sir. Thank you, likewise.
    The Chairman. Thank you, Senator Inhofe.
    Senator Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you.
    Admiral, it's good to see you again. Thank you again for 
taking the time.
    Admiral Pekoske. Thank you.
    Senator Cortez Masto. And let me just say this. Like you, I 
was here during 9/11, I was actually working in the U.S. 
Attorney's Office, and that has shaped my interactions as a 
prosecutor, not only here locally, but for the state of Nevada, 
and how we should be responding and our concerns with terrorist 
activity, not just in our states, but around the world.
    Admiral Pekoske. Right.
    Senator Cortez Masto. So I appreciate your comments. I want 
to jump back to the budget because we talked a little bit about 
that. You're going to be having to work in an environment where 
there are budget cuts that are happening. And I will tell you I 
am concerned about the impact that those budget cuts are going 
to happen on the mission of the TSA if you are confirmed. So I 
want to talk a little bit about that.
    As a matter of policy, can you talk a little bit about your 
perspective on K9 units and how valuable those are to the 
mission of the TSA? I know we are including some funding to 
increase the K9 units. Can you talk a little bit about that?
    Admiral Pekoske. Yes, Senator, I can. I am a very strong 
supporter of K9 teams. I think they are incredibly effective at 
detecting what they are trained to detect. And also, equally 
important in some ways, is they're very effective in deterring 
activity wherever the canines are present. They're very easy to 
see, and I think it deters behavior. It might signal a behavior 
detection officer to notice some response on the part of an 
individual in a public area where a K9 is operating.
    In the Coast Guard, we had K9 teams, a very small number, 
but we had K9 teams. We found them to be very effective for the 
work that we did. I will place high emphasis on K9 capability. 
I think it's a very good investment for TSA. It's a very good 
investment for the country. The challenge with K9 teams is it 
takes a long time to train them. It takes about a year to train 
the handler and the dog, but once they're trained, they're a 
team for many years. And I am a huge fan and will place 
continued emphasis on it.
    Senator Cortez Masto. But I appreciate you saying that 
because I do have concerns with respect to the budget cuts. We 
are cutting TSA agents for the exit lane staffing.
    Admiral Pekoske. Right.
    Senator Cortez Masto. And can you address that? How will 
you--if those cuts go through, is that going to impact your 
mission? And how will you fill that gap?
    Admiral Pekoske. Senator, thank you. I was not involved, as 
you know, in those decisions. I saw the budget as the budget 
was released by the Administration back in May. If confirmed, I 
will get together with the TSA budget operation and really 
understand the rationale behind some of those budget actions. 
And I also commit to you and this Committee that as you do your 
work in the appropriations process and the review process, as 
the Senate and the House do, we will be very responsive to 
information you may need to make judgments with respect to the 
budget in FY18.
    Senator Cortez Masto. Thank you. And I would hope that you 
would commit to being an advocate for your staff, for the 
resources that you need, against any ill-advised spending cuts, 
particularly those that are going to be unfortunately used to 
build potentially a border wall or reinforce and take away from 
the mission of the TSA. I would hope you can commit to at least 
being an advocate for that.
    Admiral Pekoske. Yes, Senator, that's a key aspect of my 
job, is to advocate for the agency to make sure we have the 
capability that we need to perform the mission that we've been 
tasked with performing, but knowing full well that there are 
going to be tradeoffs. There are affordability issues always, 
but my job is to advocate for what I think is best for TSA.
    Senator Cortez Masto. Thank you. And, Admiral, can you talk 
just a little bit philosophically how you see the relationship 
and the responsibilities at the Federal level versus those at 
the local airports and how you envision that relationship 
moving forward? Obviously, what you do impacts a lot of our 
airports in many of our communities. And how do you plan on 
developing that relationship and what do you think it should 
look like?
    Admiral Pekoske. Senator, thank you for the question. I 
plan to invest an awful lot of time in developing relationships 
within TSA, with the TSA workforce, understanding what they 
deal with day in and day out, and how TSA can best support them 
in accomplishing the mission they need to perform. If 
confirmed, I will also spend a great deal of time with all the 
stakeholders for transportation security writ large, aviation 
and surface. So I want to know the partners. I know what issues 
they have and can consider that.
    And I think it's important to have really good 
relationships in advance. If there's an incident or something 
happens or people tend to get at odds, having a relationship in 
advance is critically important. And so I would invest 
significant time in the early part of my tenure at TSA, if 
confirmed, in getting to know all the stakeholders across the 
transportation systems and having a good relationship with 
them.
    Senator Cortez Masto. Thank you. And then, finally, we had 
this discussion as well. Your TSA officers, they have 
discretion.
    Admiral Pekoske. Right.
    Senator Cortez Masto. And I would hope that you would be 
committed to adopting written policies and procedures and help 
guiding that discretion for those TSA officers and recognizing 
the importance of guiding that discretion.
    Admiral Pekoske. Yes, Senator, I think it's really 
important to have guidance out there. And I also think it's 
equally important that our officers on the front lines have a 
degree of discretion. When I was in their position as a much 
younger officer in the Coast Guard, I appreciated the 
discretion the organization gave me, but I had guidelines that 
I needed to follow because, you know, when you have a response 
to something, you need to make instant decisions. And I want 
the workforce to know, if confirmed, that they have the 
discretion within those guidelines to make the decisions they 
need to make.
    Senator Cortez Masto. Thank you, Admiral.
    Admiral Pekoske. Thank you.
    The Chairman. Thank you, Senator Masto.
    Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman.
    Thank you, Admiral Pekoske, for being here today. When 
Congress passed--the last Congress--the FAA Extension bill, it 
included legislation that I authored known at the SCREEN FAST 
Act. The bill established a pilot program at category X 
airports for the purpose of implementing innovative screening 
checkpoints to improve security of passenger throughput. Last 
week, TSA announced that it was moving forward with these pilot 
programs through implementation of a new security checkpoint at 
Denver International Airport checkpoint lane with innovative 
screening technology using biometric technology that had, 
quote, the potential to automate the travel document checking 
process. Obviously, these are pretty exciting possibilities and 
could mean a significant--make a significant difference in 
terms of the throughput of our airports. And so I would just 
hope we could get your commitment today for your continued 
implementation and work to continually implement the pilot 
programs outlined in SCREEN FAST at Denver International 
Airport and other airports across the country.
    Admiral Pekoske. Yes, sir, you have that commitment. In 
fact, I'm very excited about those pilot programs. If 
confirmed, one of the things that I would want to take a look 
at is, what does the checkpoint of the future look like? And it 
would embed I think some of those ideas. But that would be to 
me a North Star, if you will, for the future of the 
organization. You could align your personnel strategies, your 
acquisition strategies, your innovation strategies, to get to 
that goal. So I agree with you 100 percent, sir, that the more 
we can embed technology, just try some things out. I mean, I 
think we should be willing to try some things out, and if they 
don't work as envisioned, then we look at something else. But 
trying them out is important.
    Senator Gardner. And there are a lot of airports like DIA 
and others around the country that have some pretty great 
facilities that would allow those testing projects, pilot 
programs, to occur. They have a lot of space and a lot of 
opportunity to really see how they can work and how they can be 
combined with TSA and airport initiatives.
    Speaking of Denver International Airport and the work 
they're doing, obviously, if you travel there, you will see 
that in the Great Hall where they do the screening, you've got 
the upper level here where you can kind of sit, stand, take 
pictures looking down at everybody going through the 
checkpoints. You can take a look at who is doing what when it 
comes to security screening. You can take pictures of the 
monitors as the X-ray machines do their work.
    And so DIA recognizes, particularly in light of other 
tragic events around the globe, the need to make some security 
changes at the airport. And so they're working on advanced 
security technologies and talk about restructuring the main 
terminal building to move the security locations.
    And I would like your commitment to work with DIA and other 
airports to ensure that their checkpoints, their TSA 
checkpoints, are adequately funded, the transition process at 
DIA is smooth and on schedule with minimal disruption.
    Admiral Pekoske. Yes, sir, you have that commitment. And I 
applaud their initiative, in looking at it.
    Senator Gardner. Thank you. And in the TSA budget request, 
it includes a proposal to eliminate funding for the law 
enforcement office program, which reimburses airports for the 
law enforcement efforts that they put toward funding to 
complement TSA's security presence. Airports in Colorado, like 
Colorado Springs Airport, have expressed concerns that these 
proposed cuts could hurt their ability to have local law 
enforcement partnerships with the Federal Government to keep 
these places safe and secure. So if confirmed, will you review 
the proposal to eliminate funding for the LEO office?
    Admiral Pekoske. Senator, if confirmed, I will certainly 
examine the proposal to eliminate funding. Secretary Kelly 
testified on this just recently, and I'll just echo his 
comments that when those grants were first established, they 
were really never intended to be grants forever. It was 
intended to provide a boost when the program was first starting 
up. So I understand the rationale for what's in the budget, but 
I will take a close look at it if confirmed.
    Senator Gardner. Admiral Pekoske, thank you.
    Admiral Pekoske. Thank you.
    The Chairman. Thank you, Senator Gardner.
    Senator Nelson.
    Senator Nelson. Just a couple of questions here so we can 
get on with our members' questions. Tell me, I mentioned in my 
opening remarks that the administration's proposed budget cuts 
the VIPR teams. Since you are appointed by the administration, 
how are you going to get around this other than us increasing 
the VIPR teams in the legislation?
    Admiral Pekoske. Sir, the budget proposal, as I understand 
it, reduces the VIPR teams from 31 to 8, so there are still 
some VIPR teams present. I have worked with VIPR teams in the 
past. I understand the value that they provide, not just to 
aviation transportation security, but also to surface 
transportation security. I will work very hard to understand if 
those cuts are implemented how TSA would best implement those 
and coordinate very closely with our stakeholders.
    But at the end of the day, I support the President's 
budget, but I want to make sure that as the appropriations 
process proceeds, that Members of Congress have the information 
that they need to make their own assessment of what's in the 
budget.
    Senator Nelson. Well, then basically, I hate to put it this 
way, but we're going to have to save you from yourself. You 
know, last year we doubled the number of VIPR teams on the 
appropriate legislation, and everybody agreed with that. That 
was not a controversial issue. And now the President is taking 
the current set before they've ever been doubled and is cutting 
that, and that's just not going to stand.
    So I guess it's going to have to be us rescuing you to not 
only double it as to what was provided last year, but even 
increase it further, because there is nothing like a dog as a 
deterrent, particularly in these areas where people are queuing 
up outside of security.
    Admiral Pekoske. Yes, sir. And I agree with the risk of 
large congregations of people in any public space and what that 
presents. And I would say that my experience with the VIPR 
teams is very positive. I do think they have a very good effect 
on security.
    Senator Nelson. I just--I feel--I cringe for you that you 
have to support the President's budget because you have to, 
when, in fact, everybody in this room knows that it ought to go 
the other way.
    Let me ask you about the DHS Inspector General conducted 
covert testing of TSA's passenger screening technologies, and 
the results are classified, but the IG described the results as 
troubling and disappointing. And according to media reports, 
TSA airport screeners failed to detect explosives and weapons 
nearly 95 percent of the time. So the DHS IG has announced that 
he is now engaged in another round of covert testing. So what 
would you, when you get to be Administrator, do to correct the 
deficiencies that are noted in the IG report?
    Admiral Pekoske. Yes, sir. If confirmed, one of the first 
things I'll do is read the IG report. I haven't been able to 
read the classified sections of that report. I know the report 
exists and have seen the media reports that you mentioned, sir. 
And I would just say as well that I appreciate the work the IG 
is doing. I think that's a very valuable input into TSA 
operations, and I take to heart the IG recommendations, but 
will look very closely at the classified section of that 
report.
    Senator Nelson. OK. Thank you, Mr. Chairman. I want to give 
the opportunity to the members.
    The Chairman. Thank you, Senator Nelson.
    Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman.
    And, Admiral, thank you for your willingness to serve. I 
think you have a great background. I think you're very well 
qualified. I look forward to supporting your confirmation. I 
also appreciate your quote from Alexander Hamilton in your 
written statement. I think that that not just applies to you, 
but should apply to all of us, right? It's a very useful quote 
when we're thinking about public service and the privilege that 
we all have in serving our fellow Americans.
    Admiral Pekoske. Yes, sir.
    Senator Sullivan. I also appreciate just the focus in this 
hearing on the issues that you talked about in terms of 
personnel and retention and morale of the workforce. Like a lot 
of my colleagues, I travel a lot. I live in Anchorage, and I 
see the TSA officials literally a couple times a week, and I 
think overall we have outstanding men and women, you know, at 
least in my state, in Anchorage and Fairbanks, throughout the 
entire state. So I think addressing morale issues, as you say, 
you're a young agency, is going to be really important. Any 
sense on that? I know you've got to get on the ground and get a 
sense, but any sense right now how you want to do that?
    Admiral Pekoske. Yes, sir. I think it's critically 
important. And my sense right now, and based on my experience 
in the Coast Guard, is I think it's critically important that 
the top leadership of an organization interact with, 
understand, walk in the shoes of----
    Senator Sullivan. Yes.
    Admiral Pekoske.--their frontline employees. And it's 
important that those frontline employees know you have their 
back. You're providing them guidance. You want to seek their 
input as to how you do--you know, what kind of guidance should 
we provide you to do your job? But when they perform the job 
according to the guidance you provided, you stand behind those 
individuals because, as you know, sir, going through the check 
lines, everything is captured on video.
    Senator Sullivan. Yes.
    Admiral Pekoske. And oftentimes I assume that the TSA 
officers have followed the guidance that's been provided, I 
just think they need to be properly backed up by their 
leadership throughout. So for me, it would be showing keen 
interest in what they're doing, because that's very genuine on 
my part. When I was in the Coast Guard, I spent the majority of 
my time in the field trying to understand how the mission was 
performing and what I could do, as one of the leaders of the 
organization, to make the folks that we charge with actually 
performing the mission more effective at performing it.
    Senator Sullivan. Great. Well, I think that's going to be 
an important focus.
    We've talked about a number of areas in terms of security. 
I want to highlight three and then get a sense from you how you 
would prioritize these.
    So we've obviously talked about air travel. And Senator 
Nelson just mentioned the whole issue of soft targets outside 
the security perimeter, which I think is a big issue. Senator 
Booker talked a lot and the Chairman talked about mass transit, 
and I also share their concerns. Obviously, Alaska doesn't have 
the kind of mass transit that New Jersey does, but it certainly 
looks like it's a potential for a soft target that terrorists 
could take advantage of.
    One that does impact my state that I'd like your views on 
is critical infrastructure. You've spent time in Alaska. We 
have the 800-mile trans-Alaska pipeline that's one of the most 
important pieces of energy infrastructure in the country.
    Admiral Pekoske. Right.
    Senator Sullivan. So how do you prioritize those three 
different areas--air travel, mass transit on the ground, and 
critical infrastructure--when you're looking at your job 
responsibilities?
    Admiral Pekoske. Yes, sir, that's a significant challenge. 
And if confirmed, I would apply the same principles that we 
applied in the Coast Guard, which is what I understand TSA is 
doing right now, and that's taking a risk-based approach to how 
resources are allocated.
    Senator Sullivan. Do you think TSA is giving enough 
attention to critical infrastructure, not just the traveling 
elements, the transportation elements of the responsibilities 
of TSA?
    Admiral Pekoske. Yes, sir. I don't know the answer to that, 
but that's one of the answers I want to get if confirmed to 
make sure that we are, because it's looking across the entire 
transportation system, and you've got to have an effort to 
focus on all of that so you can make those risk-based judgments 
going forward.
    Senator Sullivan. Well, I'd like your views on that once 
you get confirmed.
    Admiral Pekoske. Yes, sir.
    Senator Sullivan. And, again, I look forward to supporting 
your confirmation.
    Let me finish with, you know, DHS is moving forward with 
the implementation of the REAL ID standards for air travel in 
2018. And as states are working their way through compliance, 
how do you foresee getting ahead of trying to mitigate what are 
bound to be and in some circumstances are already happening, 
passenger confusion and frustration at airport screening 
checkpoints, that are going to result from that law?
    Admiral Pekoske. Yes, sir. If confirmed, I think 
communications is critical to make sure that folks understand. 
I think the worst thing that could happen is somebody shows up 
at the airport, they tried to find the information and couldn't 
find it somewhere. And so good communication is absolutely 
critical----
    Senator Sullivan. Or that they know that they've got to 
come to the airport with certain IDs?
    Admiral Pekoske. Yes, sir, that's what I'm talking about. 
So that they know what IDs are acceptable at the airport.
    Senator Sullivan. OK. Well, I think having a focus on that 
is going to be important----
    Admiral Pekoske. Yes, sir.
    Senator Sullivan.--so we can mitigate a bottleneck across 
the country once that implementation happens.
    Admiral Pekoske. Yes, sir. Absolutely.
    Senator Sullivan. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Sullivan.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    And, Mr. Pekoske, thank you for your willingness to serve. 
Sea-Tac Airport has been one of the fastest growing large hub 
airports in the United States for the last 3 years. It was 
designated to handle about 25 million passengers, but last year 
it handled 45 million passengers, and it's going to continue to 
grow. So these issues of how we plan for security and 
efficiency are very critical to us. We have had many 
conversations, and TSA has been to Sea-Tac, tours, all of this, 
and has committed to adding additional staffing as the season 
demands, and I hope you would continue to do the same thing.
    Admiral Pekoske. Yes, Senator, I would.
    Senator Cantwell. Thank you. Then we will definitely be 
following up with you on details.
    OK. My colleague from Nevada brought up the K9 units and 
their effectiveness. To me, post what's happened in 
international airports and our own facility, you mentioned 
deterrents, which I love the fact that these K9 units can be 
deterrents out in the outer perimeters of the airport, which is 
just a great added layer of security. And also they can help 
make for a more expedient line, which is one of the ways that 
we handle Sea-Tac because if you're built for 25 million and 
you're handling 45 million, you need some tools. And so they've 
been a very viable tool there.
    One of the ideas that we have been looking at, because I 
think nationally we need about 300 to 500 more K9 units, and 
the training does take a long time and the certification takes 
a long time.
    Admiral Pekoske. Right.
    Senator Cantwell. What about looking at--would you be 
willing to look at information and material about doing some of 
this training in facilities outside of Laughlin if it meet 
Laughlin standards?
    Admiral Pekoske. Yes, absolutely. As long as it meets the 
standards, I think how it's sourced is something we ought to 
take a look at. And as you mentioned, Senator, the supply is 
limited. And so if you have a desire to increase your capacity, 
you need to look at alternate sources of supply at the same 
time.
    Senator Cantwell. Well, thank you for that. That's a great 
commitment. And that's where I am. And just for the record, I 
know that some airports are anxious. Our airport is willing to 
pay for this. Sea-Tac has seen the cost effectiveness and the 
security aspect of it. And just as they pay for other airport 
improvements, they're willing to pay for this one. It's not 
letting the Federal Government off of any hook, they're just 
willing to help deal with the capacity issues.
    Admiral Pekoske. Sure.
    Senator Cantwell. So I hope that some of our colleagues 
would look at that as well and discuss with TSA this ability to 
give us more capacity. There is no better security than these 
dogs, no better security that we can get. So their ability to 
detect explosives, people talk about what happened in Brussels, 
you know, that a K9 unit would have been able to target that 
activity well in advance. So I can't emphasize enough how much 
I think we need to make this investment. So thank you for your 
willingness to do the same.
    Admiral Pekoske. Thank you.
    The Chairman. Thank you, Senator Cantwell.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you for your service, and I appreciate you being here 
this morning.
    One troubling area of threat around the world, and 
certainly at our transportation facilities, is the use of 
everyday implements, vehicles, in causing the kinds of mass 
attacks that we've come to associate with other forms of 
weapons, use of vans, for example, most recently in Britain and 
Brussels. I wonder if you could share with us your insights as 
to how those kinds of attacks can be prevented, if they can be, 
what TSA is doing to research this area of threat, and how 
you're working with other agencies?
    Admiral Pekoske. Sure. Senator, I don't know specifically 
how TSA is dealing with this kind of threat right now, but if 
confirmed, I would certainly take a very close look at that. 
I'm going to make an assumption, though, based on what I know 
about intelligence operations in my Coast Guard experience, is 
that they are looking at threats writ large across the board 
and closely coordinating with Federal, state, and local 
agencies to gather information, and also through social media 
to see what's on social media so they can get ahead of what 
might be chatted about on the World Wide Web. So, sir, I commit 
to you that I will take a very close look at that to ensure the 
intelligence is properly focused, if confirmed.
    Senator Blumenthal. Well, I hope you will. You know, it's 
obviously an area of great urgency, and we tend to focus on the 
TSA screeners at the airports. And by the way, I want to join 
in thanking them for their service, as I do the Coast Guard. I 
try to thank the TSA screeners at the airports where I go. I 
have a feeling I'm in the minority of people they see in 
expressing my appreciation. But certainly they're very 
dedicated, they have tough work to do, and they perform an 
important service----
    Admiral Pekoske. Yes, sir.
    Senator Blumenthal.--and you will be providing them with 
leadership.
    And I want to say that 2 years ago I asked your predecessor 
at his nomination hearing about the task that Senator Booker 
raised, the task of our rail and transit network, its 
vulnerability, and the recommendations of the 9/11 Commission. 
He committed to completing the task of requiring railroads to 
properly vet and train employees and have plans in place to 
prepare for and avert terrorist attacks at our rail and other 
transit facilities.
    Now we have a new administration and now the rules 
unfortunately are still languishing. But making matters worse, 
the new administration has pursued a regulatory freeze and a 
hiring freeze, which may have impacts on the ongoing effort to 
implement these programs. So my question to you is, are you 
committed to completing these congressional mandates?
    Admiral Pekoske. Yes, sir, I am committed to going back and 
reexamining what the congressional mandate is so I understand 
it completely and getting a very thorough assessment as to 
where TSA is with respect to meeting those commitments. This is 
in law, so it's something that TSA is bound to comply with. So 
I will take a very close look at that, sir, if confirmed. And 
then I would like to get on your schedule to come back and talk 
with you about it.
    Senator Blumenthal. I apologize that my schedule prevented 
us from getting together before now.
    Admiral Pekoske. Sure.
    Senator Blumenthal. But I would welcome and be very eager 
to sit down with you.
    Admiral Pekoske. Sure.
    Senator Blumenthal. Let me ask, finally, in the short 
remaining time I have, last month Homeland Security Secretary 
Kelly said in an interview, television interview, on Fox, and 
I'm paraphrasing, that passengers are trying to avoid check bag 
fees, cramming their belongings into carry-on bags, and that 
makes it harder for the TSA to screen bags. And the full quote 
is people trying to avoid the $25 or $50 or whatever it is to 
check a bag are now stuffing your carry-on bags to the point 
of, well, they can't get any more in there, so the more you 
stuff in there, the less TSA professionals that are looking at 
what's in those bags through the monitors, they can't tell 
what's in the bags anymore, end of quote. Would you agree with 
that assessment?
    Admiral Pekoske. I would say guilty as charged. I do the 
same thing. I watch the TSA screeners try to make sense of what 
I have in my briefcase because I've got a lot of things in 
there, and I know it's incredibly difficult for them to do it. 
They do a very good job of trying to discern what's there. 
Oftentimes they have to refer to a supervisor to validate some 
of the conclusions they might make. But I agree with you, that 
there's an incentive to bring your bag with you, and therefore 
you put everything that you can in that bag, and it makes it 
harder for the screeners.
    Sir, I also think that, if confirmed, we ought to look at 
the technology that might enable us to see better what's in 
those bags knowing that that's what passengers are doing.
    Senator Blumenthal. But there is a very low-tech solution 
here, which is to eliminate the bag fees.
    Admiral Pekoske. Right.
    Senator Blumenthal. And to eliminate a lot of the incentive 
for people stuffing everything they own into the bags.
    Admiral Pekoske. Right.
    Senator Blumenthal. That's kind of obvious.
    Admiral Pekoske. Right.
    Senator Blumenthal. And the only reason it hasn't been 
adopted is that the airlines are making money from it, a lot of 
money.
    Admiral Pekoske. Yes, sir.
    Senator Blumenthal. And so, as a matter of fact, Senator 
Markey and I have written to Secretary Kelly seeking additional 
information, and I hope that we can follow up with both you and 
him on this issue.
    Admiral Pekoske. Yes, sir.
    Senator Blumenthal. And I wish you well in your new role, 
as a Connecticut native, born in Meriden----
    Admiral Pekoske. Yes, sir.
    Senator Blumenthal.--and raised in Southington, we would 
welcome you back. I hope you will come back and visit us----
    Admiral Pekoske. Thank you, sir.
    Senator Blumenthal.--and the Coast Guard Academy, where you 
spent I hope a number of happy years.
    Admiral Pekoske. Yes, sir. I did. I did. Except for the 
first 3 months, everything else was very happy. I'm just 
kidding. It was a great experience. And actually I was assigned 
back in Connecticut for 2 years as the Captain of Port of Long 
Island Sound. Many members of my family are still in 
Connecticut. We're up there often. So thank you, sir.
    Senator Blumenthal. Great.
    The Chairman. Thank you, Senator----
    Senator Blumenthal. Well, let me know when you visit. Thank 
you.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    Thank you, Admiral Pekoske, for your testimony here today. 
In recent years, I know a number of airports have been putting 
substantial investments in their infrastructure in order to 
deal with safety, but threats continue to get more complex. 
You're also getting increased threats in non-sterile areas as 
well. So I think there is certainly a tremendous need for 
additional security improvements from an infrastructure 
standpoint throughout airports. But I've heard from airports in 
my state of Michigan that when they talk to the FAA about 
funding airport security initiatives in their individual 
airports, the FAA always says it's the responsibility of the 
TSA and then when they go talk to the TSA, the TSA says it's 
the responsibility of the FAA. So they're finding this kind of 
finger-pointing back and forth, pretty frustrating, as I do.
    I'm a member of this Committee which has jurisdiction over 
the TSA. I'm also a member of the Homeland Security Committee. 
So we're going to try to work through this and find out how we 
can coordinate better to make the kind of necessary security 
improvements that we need to make.
    Right now I'm working on legislation that will allow 
airports to use the passenger facility charge that they collect 
for security infrastructure projects. I'd like to hear from 
you, if confirmed, would you ensure that the TSA does its part 
to help airports with security infrastructure projects?
    Admiral Pekoske. Yes, sir. If confirmed, I think one of the 
first things to do is to make sure that people are brought to 
the table and talk with each other. At an airport, bring the 
TSA Federal Security Director, the FAA lead in that airport, 
and the airport authority together to have a conversation as to 
what each other's roles and responsibilities are and 
expectations. So ideally they can all align and find a path 
forward.
    What I will commit to you, sir, is I will take a look, a 
very close look, at the issue. I am not familiar with the 
funding streams that would be associated with that, but I will 
certainly take a look at it, given that you've raised it, sir, 
and get back to you.
    Senator Peters. Well, that was my second question, if you 
would support the creation of an airport security-focused grant 
program, something you probably aren't prepared to answer now--
--
    Admiral Pekoske. Right.
    Senator Peters.--but if confirmed, is that something that 
you would put some effort into?
    Admiral Pekoske. Yes, sir, I would definitely take a look 
at that potentiality.
    Senator Peters. Do you support the House proposal that 
would redirect airline passenger security fees, which are right 
now used to offset unrelated government funding? Would you 
support bringing that back for aviation security purposes?
    Admiral Pekoske. Sir, I support adequate funding for TSA 
overall. And however that funding arrives at TSA, whether it's 
through fees or through appropriated funds, as long as I get 
the funding that is needed to provide the security that we're 
charged in law to provide, I'm happy.
    Senator Peters. The FAA Extension included a number of 
provisions to respond to insider threats and improve the 
screening of airport workers, such as requiring the recurrent 
vetting of airport workers as part of the FBI's Rap Back 
program.
    Admiral Pekoske. Mm-hmm.
    Senator Peters. The Detroit Metropolitan Airport has been 
very proactive in implementing these requirements, and they've 
even gone further by rebadging all 18,000 employees every year, 
establishing a thorough and standardized inspection process for 
all the deliveries that are coming into the airport as well, 
which, of course, is a way to get contraband and dangerous 
articles into the airport.
    Admiral Pekoske. Right.
    Senator Peters. What programs or improvements do you hope 
to implement to address the issue of insider threats, if 
confirmed?
    Admiral Pekoske. Yes, sir. Insider threats are a 
significant issue. And I think a lot of good work has already 
been done in that regard. One is to increase the random 
screening of airport workers, not to the point yet of 100 
percent screening. Some airports do, do that on their own. But 
from a TSA perspective, as I understand it, to increase the 
random frequency at which those workers are checked.
    The other thing, as I understand it from my briefings with 
TSA to get ready for this hearing, is that they're trying to 
reduce the number of checkpoints so that the access points in 
the airport are fewer in number so that you can have greater 
control over the flow of workers back and forth.
    Senator Peters. Very good. As you know, the TSA Screening 
Passengers by Observation program is designed to identify and 
engage individuals who may be high risk on the basis of their 
actions or verbal cues that TSA officers are watching. And I 
know it has been an important program for the detection and 
deterrence of individuals, but I also know that there are folks 
who believe that this can lead to racial profiling as a whole, 
and I've certainly heard individual complaints from folks, 
particularly in the greater Detroit area with a large Muslim 
American community that I represent. And although I'm aware 
that Ben Gurion Airport in Tel Aviv is also one of the most 
secure airports in the world, and they implement a variety of 
these techniques there, so it is a balance that we have to 
make.
    But I'm curious as to what your thoughts are on the TSA 
Screening Passengers by Observation program. Do you think it's 
working? And how would you improve it if confirmed?
    Admiral Pekoske. Yes, sir. I don't have enough information 
to be able to assess whether or not it's working. Some 
information that I would get, if confirmed, and I get into the 
Agency and can better understand it. As I understand it, 
though, from public reports, that behavior detection officer 
function has been embedded with the regular TSA workforce as 
well, which makes to me a lot of good sense because you've got 
more eyes looking at passengers as they're going through.
    I do think, and I appreciate your comment about racial 
profiling or profiling of any nature, that's something that we 
just don't do. And I think if you get a report or a complaint 
in that regard, you need to look into it quickly to make sure 
that if it did happen, that you quickly adjust your procedures 
and your training to make sure it doesn't recur. But 
unfortunately, that will happen on occasion. You just need to 
look at it quickly and address it right up front.
    Senator Peters. Great. Thank you so much.
    Admiral Pekoske. Thank you.
    The Chairman. Thank you, Senator Peters.
    Senator Hassan. Oh, sorry, Senator Klobuchar is back.
    Senator Klobuchar. No, no, no, I----
    The Chairman. Senator Klobuchar is back, so she is----

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. That's OK. OK. All right. We'll spend 
all of our time going back and forth. That will be lovely.
    [Laughter.]
    Senator Klobuchar. Mr. Pekoske, thank you so much for being 
here, and the important work that needs to be done here. We 
recently had an all-Senator security briefing on threats to 
aviation security. You're probably aware of that, including the 
recent laptop ban on flights from some of the international 
airports. As a TSA Administrator, you will oversee screening 
travelers and baggage for over 1.8 million passengers a day at 
450 of our Nation's airports. Given your military service and 
your experience in operational leadership, what do you think 
are the biggest challenges associated with aviation security?
    Admiral Pekoske. Senator, the biggest challenges in my view 
is, first and foremost, the training of the TSA workforce and 
the support of the TSA workforce. Those are the individuals who 
do an outstanding job, in my view, and if confirmed, I would 
look forward to joining them in this effort. But they need to 
have guidance that makes good sense. And I'm not saying that 
they don't have it right now, it's just something that I would 
look at because I haven't been privy to that at this point in 
time.
    And also the discretion to make judgments on their part 
when they see something that might not fit for them. That's 
very much a Coast Guard model. We place authority at the point 
of service delivery in the Coast Guard and give our young petty 
officers and young officers a lot of discretion as to how they 
apply the guidance that we provide. I think that's important 
for the TSA workforce as well. Plus, as an individual, I kind 
of like that, I like people to give me some leeway into how I 
do my job.
    Senator Klobuchar. Yes.
    Admiral Pekoske. So for me, an absolute focus on the 
workforce. And then second, Senator, would be a focus on giving 
the workforce the tools to best do the job, and that's through 
the Innovation Task Force that I understand TSA has and has 
produced some good results, putting the technology in place 
that will make them more successful in their jobs.
    You know, to give the example of the individual that 
screens carry-on baggage. I mean, when you look at those 
screens, if you get a chance to glimpse around and see that 
screen, it's very hard to discern good versus bad within that 
image, and so providing some better equipment to make that job 
better and more effective for those individuals I think is 
critically important.
    Senator Klobuchar. Right. And I would also add just the new 
technology that we keep testing it.
    Admiral Pekoske. Right.
    Senator Klobuchar. We just are debuting something new at 
the Minneapolis Airport, Delta is doing it there in Atlanta, 
with facial recognition.
    Admiral Pekoske. Right.
    Senator Klobuchar. And then also has some self-checking of 
bags. I don't know. I read it, it looked complicated. I was 
like, ``No!'' But I think it's good to try new things and----
    [Laughter.]
    Senator Klobuchar.--I don't really mean that, it's probably 
a good thing, but just trying to find those new things. I know 
you talked at length about VIPR teams, you and I have talked 
about that and how important that has been in our airports when 
we have those huge lines, nightmarish waits, and we were able 
to speed it up with Admiral Neffenger, and we were able to do 
some new things. It was a big change.
    And that leads me to the efficiency issue. According to the 
U.S. Travel Association, reducing TSA waits, you can do it 
without compromising security, which is, of course, our number 
one goal, security, and it could generate an additional $85 
billion in travel, and which, of course, means a lot of jobs.
    Which areas of TSA operations do you think are 
opportunities to reduce traveler hassle without compromising 
security?
    Admiral Pekoske. Senator, I think one of the key ways would 
be to bring more people into the Trusted Traveler Program, 
whether it's through PreCheck or Global Entry. That would be 
critical to improving the flow, but when you do that, you get 
more people into the TSA PreCheck lines, you've got to make 
sure that you process them through the lines expeditiously as 
well because you can't have a longer queue in the PreCheck line 
than you have in the standard line and expect people to want to 
do that.
    So I think that bringing more people into those kinds of 
programs is really, really important.
    Senator Klobuchar. And I know--I think Senator Blumenthal 
may have asked you about this, but the Federal hiring freeze?
    Admiral Pekoske. Right.
    Senator Klobuchar. How will the partial continuation of the 
hiring freeze affect our homeland security?
    Admiral Pekoske. Senator, as I understand the TSA budget, 
the impact on the hiring freeze is going to be mostly felt on 
the support end of TSA. And that helps the operations continue, 
but it does have--you know, I've watched this dynamic in the 
past in my Coast Guard service. At some point you can't trim 
support too deeply because then you start to affect the ability 
of the frontline forces to get their job done, too. So it's a 
very careful balance. But----
    Senator Klobuchar. Right. And you and I had a good 
discussion about the morale issue as well.
    Admiral Pekoske. Right. Yes.
    Senator Klobuchar. Just last question. General aviation 
industry, we have Cirrus that makes jets in Minnesota, and they 
use a few of them in South Dakota. Many of the TSA's existing 
security guidelines rely heavily on the general aviation 
community to detect and report suspicious activity. For this 
strategy to be effective, it is important that pilots and 
airport personnel know who to contact with security concerns. 
What steps would you take to work with the general aviation 
community to improve security?
    Admiral Pekoske. Well, I, first off, Senator, if confirmed, 
would make sure they know who to call. I mean, I think that's 
pretty important.
    Senator Klobuchar. That's a good beginning. We like that, a 
simple answer. That's good.
    Admiral Pekoske. Right. Right. And, you know, the Federal 
Security Directors, as I understand the structure, have 
responsibility for some of the smaller airports as well. That 
Federal Security Director, in my view, ought to be a visible 
presence on occasion at the smaller airports so people actually 
put a face to a name and know who it is.
    Senator Klobuchar. All right. I really appreciate your 
answers. Thank you very much.
    Admiral Pekoske. Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    Now Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chair. And, Admiral, it is 
very nice to see you again. Thank you for taking the time to 
come by my office. I appreciated your willingness to do that 
and our conversation very much.
    I would just add my voice as we talked a little bit about 
in that meeting to the request that you all take a look very 
closely at the impact of baggage fees on the way we do business 
and the cost to TSA, because the other concern I have, hearing 
the concerns of my colleagues, is that as people work to keep 
all their belongings with them to avoid the fees, it creates a 
lot of congestion, we've got more bags to check, and we're 
really taking a cost through TSA on that perhaps should be 
borne by the airlines.
    So I would love it if you would continue to look at the 
impact of baggage fees on our security as well as convenience 
in operations.
    Which leads me to another issue that we touched on and 
colleagues have touched on here. We know that we've seen a 
number of troubling incidents of violence in the public areas 
of non-sterile areas of our airports, the Los Angeles incident 
in 2013 in which an active shooter killed five people--sorry, 
where an officer was killed, and then it was the Fort 
Lauderdale Airport where five people were killed in a baggage 
claim area. A year ago, suicide explosions occurred in the 
public areas of Brussels Airport and Istanbul Ataturk Airport, 
killed 61 people.
    And you've heard questions from my colleagues about the 
reductions to VIPR teams and to grants to state and local law 
enforcement in the budget. What I would ask you to think about 
is that these soft areas of airports are really important. You 
know, the basic understanding I have of security is it's always 
better to push the threat farther away. And so I will tell you, 
as a former Governor, if the local and state grants go away, 
you will see personnel reductions at our airports. It's a fact, 
because there just aren't the state and local budgets to match 
it. It may have started out as a boost to help people get up to 
speed after 9/11, but we're dealing with an evolving threat all 
the time, and the need to change and coordinate across the 
country in our air traffic system is really an important one.
    So I would ask you, you weren't part of developing this 
budget, I would ask you to stand up for that principle, that we 
have a national interest in protecting the soft areas of our 
airports and their perimeters, and that we really do need to 
help our local and state folks be partners with that.
    So I just hope you will commit to looking at that closely 
and standing up for that principle.
    Admiral Pekoske. Yes, yes, Senator, I will look at all of 
the things you've asked me to look at. TSA, as I understand it, 
has held some public area security summits, four so far this 
year, which are designed to look at the framework that was 
established for public area security, and then kind of talk 
through in individual airport situations how the various 
entities, the agencies, law enforcement, public safety, TSA 
would respond, for instance. So I think that's really important 
to continue to exercise.
    And the other thing I would mention, Senator, is the use of 
what's called advanced screening lanes, which is if you look at 
the screening process, there are certain obvious bottlenecks.
    Senator Hassan. Right.
    Admiral Pekoske. One of the obvious bottlenecks, to me 
anyway, as a passenger is when the individual is looking to try 
to discern what's in your checked bag.
    Senator Hassan. Yes.
    Admiral Pekoske. The other one is as passengers try to put 
their bags on the conveyor belts, some take longer because 
they're not as familiar or might have different things in their 
bags.
    Senator Hassan. Yes.
    Admiral Pekoske. And so these advanced screening lanes, 
which I think are in 16 airports, as I recall, around the 
country allow that process to move faster as well.
    Senator Hassan. That would be very helpful. The other thing 
I wanted to talk on, and I was at another hearing, so I may 
have missed somebody else asking this question, but I wanted to 
touch on, as I understand the FAA Extension bill from last 
Congress helped to increase the vetting of U.S. airport workers 
in order to prevent against insider threats. And you've talked 
a little bit about that.
    We obviously, though, don't have complete authority over 
foreign airports. In two recent attacks, one at Mogadishu 
International Airport in Somalia in 2016 and one at Sharm El 
Sheikh Airport in Egypt in 2015, foreign airport workers were 
believed to be complicit in aiding the attack.
    From your perspective, do you think foreign airports, 
especially those that are points of last departure to the 
United States, are effectively screening their workers in order 
to root out potential terrorist threats?
    Admiral Pekoske. Senator, great question, and I don't know 
the answer to that.
    Senator Hassan. Yes.
    Admiral Pekoske. I haven't delved into that, but if 
confirmed, I will certainly look at that. I know that that's 
also something Secretary Kelly has looked at with respect to 
the laptop.
    Senator Hassan. Yes. OK. Thank you very much.
    And thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hassan.
    Senator Capito.

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman. And thank you, 
Admiral Pekoske, for taking this I think daunting challenge 
really on, and I certainly will be supportive. And thank you 
for the visit to my office. When you were in my office, we 
talked about not only your long and very admirable Coast Guard 
history, which I'm very much in awe of, we talked about K9 
teams, something I've become very interested in.
    In April, when we passed our legislation to ask TSA to 
develop a risk-based strategy, the bill included immediate 
expansion of additional K9 teams because they are such a 
reliable source. And I don't know if you've addressed this 
issue before I got into the room, but I'm curious to know what 
your perspective on the effectiveness of K9 teams would be, but 
also I know through my work with the Capitol Police that the 
resources to acquire and whether there are enough canines to 
actually fulfill the desired needs is another issue.
    So could you just address that issue? And I think that 
would be very helpful in terms of all aspects of 
transportation, not just in the lines, but in the perimeter 
when people are getting dropped off to the airport. So if you 
could just talk about that a little bit.
    Admiral Pekoske. Yes, thanks, Senator. And thank you for 
your time in your office. I greatly appreciate the time that 
you spent with me.
    With respect to canines, I have some experience with 
canines. The Coast Guard used a limited number of K9 teams in 
their Maritime Safety and Security Teams. From my perspective, 
they're incredibly effective at detecting whatever it is the 
canine is trained to detect. And importantly, they're also very 
effective in deterring. People see a K9, that either causes 
some behavior that people might notice or causes a person that 
might be thinking of doing something to not go through with it 
based on the canine.
    And I think you're absolutely right, that the supply of 
canines are limited, and it takes, as I understand it, about a 
year to get the team trained. It's the handler and the canine. 
Senator Cantwell asked me if we would consider other sources 
beyond the source that we currently use, as I understand it, 
down at Laughlin Air Force Base, and that's something that I'm 
hoping to explore if I'm confirmed, is to look at other sources 
of doing this, provided that they meet the same standard.
    But I agree with your comment completely, that they're very 
effective at what they do.
    Senator Capito. I'd like to talk--and you touched on this a 
little bit as I've listened to your testimony, but I think, at 
least my impressions on certain occasions of going through the 
lines at the airports, that--this isn't a universal thought, 
but I would imagine the challenge of the morale. You know, a 
TSA Agent on the front line right there has to be pretty 
patient because you've got elderly people, you've got kids, you 
have people who have never been through a line before, you've 
got people who are mad because their flight is late, and 
they've got an attitude, and then you've got everybody else, 
and maybe they've been waiting in line for 15, 20 minutes, and 
they're tired of it.
    But I am concerned about the morale issue. How do you 
propose to address that? And has there been a deep dive into 
what the actual job satisfaction of a TSA agent is and what 
improvements could be made? I learned actually over in my 
Appropriations Committee that, believe it or not, Park Service 
personnel don't like their job. And we all would think working 
at a national park would be something everybody would like to 
do.
    Admiral Pekoske. Right.
    Senator Capito. So I'm curious to know, because I think 
this is a really important issue to be effective.
    Admiral Pekoske. Senator, I couldn't agree with you more. I 
think it's one of the most important things for a potential 
Administrator of TSA to take a look at. And I think it's 
critically important that the workforce views me, if I'm 
confirmed, as someone who understands the challenges that they 
face day in and day out beyond what a normal passenger going 
through the line will see. And I accept your points that it's a 
hard job, and you've got to be right all the time.
    But I would reemphasize with the workforce, that what they 
do is so critically important, and I'm not--I think they need 
to be reminded of that day in and day out because I think if 
you're doing it day in and day out, you might lose focus on it.
    Senator Capito. Right.
    Admiral Pekoske. They are, in many cases, the last line of 
defense for somebody getting through our security process 
because the gate check is really not much of a security check 
at all. And so I would, if confirmed, spend a lot of time with 
the frontline workforce, and I would want to make sure 
everything else TSA does enables that frontline workforce. 
They're the ones that are the face of TSA. They're the ones 
that are providing direct security both for aviation and for 
surface transportation in terms of guidance and support and 
inspections.
    I would just want to make sure that they are as supported 
as they need to be to get their job done, appreciated by the 
leadership, and have leadership that understands completely 
what they're dealing with. So really good communications and 
presence I think are important.
    The final thing I would add to that is top leadership 
interest is one thing, but you have to have interest throughout 
the entire line of leadership within an organization. And so 
their first-line supervisor has to be completely engaged with 
our employees and really trying to find out what will make them 
become more engaged in the workforce. I'm concerned with the 
survey results I see and some of the reports I see as well.
    Senator Capito. I appreciate that. And just a final 
comment. I know you're going to be confirmed. After you're 
confirmed, I'm sure you're going to be traveling across the 
country to many airports. I would encourage you to go, and I'm 
sure you will, to go to the smaller rural airports to see the 
different challenges----
    Admiral Pekoske. Yes. Right.
    Senator Capito.--and also to see how successful they are at 
meeting the challenges that they have in the smaller regional 
airports. So thank you very much.
    Admiral Pekoske. Thanks, Senator. I look forward to doing 
that. Thank you.
    The Chairman. Thank you, Senator Capito. And you can start 
in South Dakota and West Virginia--right?--checking out those 
smaller airports where all the Park Service employees are very 
happy. It's in Minnesota that they're not happy, I think.
    [Laughter.]
    The Chairman. I think that's everybody that we have, 
Admiral. So again welcome, and we appreciate so much your 
remarks this morning and your response to our questions and 
your willingness to serve our country in this very important 
role. And we hope to be able to move your nomination fairly 
quickly.
    And so given that, we're going to keep the hearing record 
open until this Friday, June 23, in the next couple days. If 
Senators can get their questions for the record submitted as 
quickly as possible, and if you could respond as quickly as 
possible, we would like to be able to have you on our markup 
agenda next week.
    So I think with that, again thank you. We appreciate your 
cooperation and the cooperation of all the members of the 
Committee. And with that, this hearing is adjourned.
    Admiral Pekoske. Thank you, sir.
    [Whereupon, at 11:32 a.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Deb Fischer to 
                     Vice Admiral David P. Pekoske
    Question 1. I understand that some transportation facilities would 
like to use TWIC as part of their security plans. What do you think 
about the voluntary use of TWIC for other modes of transportation, such 
as pipelines, for facility security plans?
    Answer. I am open to exploring the use of TWIC as part of facility 
security plans. If confirmed, I will look closely into TSA's work on 
this and would welcome the opportunity to discuss it further with you.

    Question 2. Attacks on rail carriers in France in 2015 and Brussels 
in 2016 highlight the vulnerabilities to our passenger rail systems. 
These systems are naturally open, which can make them soft targets. TSA 
does not directly manage passenger rail security, but provides support 
for passenger rail systems through training and exercise programs. In 
your opinion, how can we better protect and prepare passenger rail 
systems to lessen their vulnerability?
    Answer. In my opinion, we can better protect and prepare passenger 
rail systems through vulnerability assessments, security plans and 
exercises. Additionally, continued promotion of the ``See Something/Say 
Something'' campaign would enlist passengers' help to provide 
information to security personnel for evaluation and response, if 
needed.

    Question 3. In your opinion, do the Visible Intermodal Prevention 
and Response, or VIPR (pronounced Viper) teams add to our 
transportation security?
    Answer. VIPR teams augment the security of any mode of 
transportation and have been in use for over 10 years. In my opinion, 
they contribute to transportation security by augmenting response and 
deterrent capability, as part of an overall transportation security 
system. If confirmed, I look forward to briefings on the evolution of 
the use of VIPR teams.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                     Vice Admiral David P. Pekoske
    Recent Attacks. There has been a series of tragic terrorist attacks 
both abroad and here at home--from Belgium, France, and the U.K. to New 
York and New Jersey. In the last year, we have also experienced a 
tragic shooting at Fort Lauderdale's airport and most recently a 
stabbing at Flint's airport. These attacks and threats are alarm bells 
calling for us to reevaluate our transportation security systems in the 
face of an evolving and persistent terrorist threat.
    Question 1. What lessons have you learned in your career that will 
enable you to best prevent these attacks?
    Answer. In my career, I have learned that close cooperation and 
communication among agencies and stakeholders is critical to prevent 
security incidents from occurring and should they occur, to providing a 
rapid and coordinated response to the incident. I think intelligence 
analysis and sharing are very important to understanding the risk to 
transportation systems and contributing to the planning and exercising 
that are critical to overall transportation system security readiness.

    Question 2. What should the Federal Government be doing to prevent 
tragic surface transportation terrorist threats?
    Answer. The Federal Government should be assessing the threat and 
disseminating information as appropriate to state and local law 
enforcement agencies and facility owners and operators. In my opinion, 
the Federal Government should also allocate resources based on a 
careful assessment of the risks to all transportation modes.

    Funding for Surface Security. Experts have noted and international 
experience shows that the opportunity for attacks on maritime and 
surface transportation systems may be as great or greater than that of 
aviation. Yet less than two percent of TSA's budget is devoted to 
protecting surface transportation.
    Question 3. Do the resources TSA directs to surface transportation 
adequately reflect the risks?
    Answer. If confirmed, I will assess TSA's resource allocation to 
surface transportation security to determine whether relative resource 
allocation is appropriate, and work with the Administration to address 
funding priorities.

    Agency's Challenges. Your predecessor was well regarded and led the 
agency through some difficult times--whether it was testy interactions 
with the public, long lines, or employment training and culture--while 
accomplishing the mission.
    Question 4. What do you think are the challenges the agency still 
faces and how will you continue to improve how the public views TSA and 
how TSA employees view themselves?
    Answer. TSA still faces challenges with employee satisfaction. This 
is reflected in workforce attrition rates and annual employee survey 
results. Perceived employee morale issues and relatively high employee 
attrition can affect employee performance and public confidence in the 
agency. The TSA workforce is critical to the agency's mission success. 
If confirmed, I will place great emphasis on improving employee 
satisfaction, training, recognition, and leadership development.
    Technology and process improvements are being made. Accelerating 
the pace of these improvements to improve security effectiveness and 
efficiency would further improve public opinion. If confirmed, I will 
champion TSA innovation programs and a more rapid acquisition process.
    TSA Precheck enrollment rates need to be improved. This is good for 
security, the TSA workforce and travelers. If confirmed, I will review 
the TSA Precheck program to identify ways that traveler participation 
can be increased.

    TSA Dispute. I am aware of a dispute between TSA and SecurityPoint 
Media, a small business based in Florida that provides equipment and 
services to airport authorities around the country. TSA has decided to 
effectively block the company from expanding its operations beyond the 
forty airports that it currently services.
    Question 5. Will you commit to examining why TSA's General Counsel 
has declined to revise its memorandum of understanding to allow airport 
authorities to contract with SecurityPoint Media and providing an 
update to the Committee?
    Answer. If confirmed, I will examine the issue and provide an 
update to the Committee.

    Responding to Congress. For Congress to fulfill its constitutional 
duty to conduct oversight, all members of Congress must have access to 
testimony, briefings, and other information from the executive branch.
    Question 6. Will you commit to promptly responding to all 
congressional requests for information, including requests from members 
in the minority?
    Answer. If confirmed, I will commit to being responsive to all 
requests from Congress.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Brian Schatz to 
                     Vice Admiral David P. Pekoske
    Minority Members' Oversight Requests. White House and the Office of 
Legal Counsel have recently asked Federal Government agencies to only 
answer oversight requests from committee chairmen, rather than all 
members of Congress, including the ranking member.
    Question. Do you personally commit to responding to oversight 
requests and letters from minority members of Congress in a timely 
manner?
    Answer. If confirmed, I will commit to being responsive to all 
Members of Congress.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                     Vice Admiral David P. Pekoske
Canines, VIPER Teams, Soft Targets, Funding
    Question 1. Mr. Pekoske, will you advocate for continued funding 
and use of bomb-sniffing K9 teams at airports around the country?
    Answer. If confirmed, I will advocate for K9 teams and allocate 
those teams based on security risks to airports and transportation hubs 
around the country.

    Question 2. I also strongly support funding for Visible Intermodal 
Prevention and Response (VIPR) teams, which are deployed by TSA in 
coordination with other intelligence levels based on threats levels in 
order to improve safety. Do you support ensuring use of VIPR teams in 
reducing potential threats?
    Answer. I support the use of VIPR teams in reducing potential 
threats.

    Question 3. As you know, in 2016, extremely long TSA wait times 
plagued busy airports around the country including Newark Airport. 
While we have seen improvements, these recent problems indicate a lack 
of security resources at many of the busiest airports in the country. 
Can you commit to ensuring that TSA continues to work with me and my 
team to ensure that TSA has adequate staffing levels at Newark Airport?
    Answer. If confirmed, I commit to ensuring that TSA continues to 
work with you and your team to make the best use of currently available 
screening resources at airports around the country. I view the role of 
TSA Administrator as being a strong advocate for adequate resources to 
complete the mission of the agency. If confirmed, I look forward to 
working with you and your team to review the staffing levels at Newark 
Airport in light of actual and projected passenger throughput.

    Question 4. The Aviation Security Advisory Committee in 2015 
identified the urgent need to better protect non-secure ``soft target'' 
areas of airports. Do you support ensuring that the Urban Area Security 
Initiative (UASI) and State Homeland Security Grant Program (SHSGP) are 
used for airport security, including securing ``soft target'' areas and 
for training exercises?
    Answer. If confirmed, I commit to thoroughly reviewing ASAC's 
recommendations for non-secure ``soft target'' areas of airports. If 
confirmed, I would be pleased to follow up directly with you or your 
staff.
Air Marshals
    Question 5. My office has received complaints from Federal Air 
Marshals about the way they are being scheduled and utilized. I have 
heard from some air marshals that they are often sleep deprived, 
leading to health problems and creating a situation where the air 
marshals could potentially not be at their best physically should a 
problem arise on a flight. I have also heard that air marshals suffer 
high rates of alcoholism and suicide. All of this seems very serious to 
me--if confirmed, would you make it a priority to look into the working 
conditions of our Federal air marshals?
    Answer. Yes, if confirmed, I will make it a priority to look into 
the working conditions of our Federal Air Marshals.
TSA Precheck
    Question 6. The TSA indicates that higher rates of enrollment in 
TSA Precheck is an effective way to reduce wait times and improve 
security. Will you commit to work with me and my team to identify ways 
to increase participation in TSA PreCheck?
    Answer. Yes, if confirmed, increasing participation in TSA PreCheck 
would be a priority and I will commit to working with you and your 
team.
TSA Morale
    Question 7. I was encouraged that in your questionnaire submitted 
to the committee you have indicated a commitment to prioritize 
workforce engagement. I often point out that while we always hear about 
any incidents where TSA staff have made mistakes, there is rarely any 
attention around the countless actions taken by dedicated 
transportation service officers to protect millions of Americans and 
save lives. Can you commit to work with me to find new ways to improve 
morale at TSA in part by making sure we do more to recognize the hard 
work of tens of thousands of dedicated transportation security officers 
around the country?
    Answer. If confirmed, I would welcome the opportunity to work with 
you in finding ways to improve the morale at TSA. Recognizing the 
strong dedication, high performance and hard work of the TSA workforce 
is very important and a key function of leadership in DHS and in 
Congress.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                     Vice Admiral David P. Pekoske
    Airport Law Enforcement Support. Vice Admiral Pekoske, thank you 
for your distinguished service to our country. Events like the shooting 
at the airport passenger terminal in Fort Lauderdale earlier this year 
and the 2013 airport shooting at LAX highlight the need for law 
enforcement presence and response capabilities in terminals and at 
passenger screening checkpoints.
    Unfortunately, the President's FY18 budget calls for elimination of 
the $45 million annual program that reimburses state and local law 
enforcement agencies for providing support at passenger checkpoints.
    Question 1. What challenges do you foresee in maintaining airport 
law enforcement support at current levels if Federal funding is 
eliminated as proposed?
    Answer. I think the challenges in maintaining airport law 
enforcement support at current levels, if Federal reimbursement is 
eliminated as proposed in the President's FY18 budget request, will 
vary by local law enforcement jurisdiction. If confirmed, I will ensure 
TSA works closely with those law enforcement agencies, who are key 
partners, to mitigate the effect of any potential reductions in 
support.

    Question 2. As TSA Administrator, what is your plan to ensure that 
law enforcement presence at airports is not diminished and that TSA has 
adequate support at passenger screening checkpoints?
    Answer. If confirmed, I will review TSA's, airport owners' and 
operators', and local law enforcement agencies' efforts to provide 
adequate support at passenger screening checkpoints. I think the 
partnerships that exist within our airports are critical to providing 
security for all who use them.

    Security and Screening Efficiency. Concerns have been raised that 
increased numbers of carry-on bags and dense packing of those bags are 
significantly impacting screening efficiency and effectiveness. TSA has 
announced trial programs at selected airports that require passengers 
to remove books and other paper products, tablets and other electronic 
devices, and food items for separate screening.
    Question 3. In your opinion, how will TSA balance concerns 
regarding evolving terror threats with industry and passenger concerns 
over disruptions and airport checkpoint delays?
    Answer. In my opinion, TSA's primary mission is to ensure that 
security operations are effective at countering the evolving terror 
threats. I understand industry and passenger concerns for efficient 
screening and, if confirmed, will work to ensure TSA operations remain 
effective and efficient through the use of intelligence information and 
process and technological innovation. Maximizing the use of trusted 
traveler programs, in my opinion, also provides a key means of 
achieving this balance.

    Question 4. From your perspective, what are the tradeoffs between 
security effectiveness and possible impacts on screening efficiency, 
passenger wait times, and TSA staffing and resources?
    Answer. From my perspective, all are interrelated. As a passenger, 
I want my travel to be secure while at the same time, I expect an 
efficient and professional workforce that is well trained and has the 
proper tools at hand to accomplish screening with efficiency. My 
personal experience as a traveler interacting with screening personnel 
is very positive and I greatly appreciate the work they do. As 
passenger volumes increase and threats continue to evolve, I believe 
continued investment in the TSA workforce is needed. This needs to be 
complemented by technological and process improvements in passenger 
screening to include increasing the number of pre-vetted trusted 
travelers.

    Risk-Based Approach. A September 2016 report by the DHS Inspector 
General concluded that TSA lacked an ``intelligence driven, risk-based 
approach'' for allocating budget resources across all transportation 
modes. This criticism was particularly directed toward the surface 
modes for which the TSA lacked a formal mechanism for funds to be 
allocated based on an assessment of the threat, vulnerabilities, and 
consequences of a terrorist attack.
    Question 5. In your opinion, how should TSA go about developing a 
risk-based approach to allocating resources among transportation modes?
    Answer. In my opinion, TSA should continue to mature the risk-based 
approach to allocating resources across all modes of transportation. It 
is my understanding that significant work is already underway within 
TSA on this approach. If confirmed, I will become very familiar with 
TSA's current efforts and will be personally involved in its continued 
development.

    TWIC Program. In the aftermath of 9/11, Congress enacted the 
Maritime Transportation Security Act that, among other things, requires 
workers to undergo a security screening before being allowed into a 
seaport. TSA conducts the security screening and issues a 
Transportation Worker Identification Credential (TWIC) card to those 
who successfully pass the criminal history, immigration, and terrorist 
watch list checks.
    A 2016 Inspector General audit found that TSA appeared to be more 
concerned with customer service matters--like issuing the cards in a 
timely manner--than with careful scrutiny of applicants. It found that 
applicants believed to be providing fraudulent identification documents 
were nevertheless issued a TWIC.
    In February 2016, Federal investigators announced that they had 
uncovered a ``document mill'' producing fraudulent TWIC cards in Los 
Angeles. Congress enacted the Essential TWIC Assessment Act to improve 
TSA's vetting process, including fraud detection. The law also requires 
DHS to commission an outside organization to conduct a comprehensive 
assessment of the benefits and costs of the TWIC card.
    Question 6. What is your view regarding the efficacy of the TWIC 
program and do you have ideas for improving it?
    Answer. In my opinion, program effectiveness is essential and I am 
very concerned with the reports cited above. I would welcome an 
opportunity to discuss my ideas for improving the TWIC program with you 
after I have been able to look more closely at this matter.

    TSA Credentials for Veterans. I am also interested in helping 
servicemembers better transition to civilian life. A key component is 
making sure employers understand the skills and training of American 
Veterans and how these talents can increase efficiency in recruiting 
and hiring these individuals. For example, Veterans who are honorably 
discharged and possess an active security clearance should be eligible 
to obtain a TWIC card without TSA having to invest limited resources 
into a duplicative background investigation. Presumably, if our Nation 
already trusts these individual to properly handle classified 
information, we can also trust them to work in controlled access areas.
    Question 7. If confirmed, will you commit to working with me to 
ensure that TSA maximizes the use of increasingly scarce resources by 
ensuring that Veterans with the appropriate clearances are able to 
automatically, or through an expedited process, receive TSA 
credentials?
    Answer. I would welcome the opportunity to work with you on this, 
if confirmed.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
